APPENDIX TABLE OF CONTENTS
APPENDIX A. Opinion of the United States Court
of Appeals for the Eighth Circuit
(July 12, 2019) ................................................... 1a
APPENDIX B. Judgment of the United States Court
of Appeals for the Eighth Circuit
(July 12, 2019)............................................................ 4a
APPENDIX C. Order of the United States District
Court for the District of North Dakota Granting Defendants City of Dickinson’s and Does
1-10’s Motion for Summary Judgment
(February 5, 2018) .............................................. 6a
APPENDIX D. Order Granting Defendant Terry
Oestreich’s Motion for Summary Judgment
(February 5, 2018) ............................................ 18a
APPENDIX E. Order Granting Defendants Kylan
Klauzer and Jeremy Moser’s Motion for
Summary Judgment (February 5, 2018) .......... 43a
APPENDIX F. Order of the United States Court of
Appeals for the Eighth Circuit Denying Petition
for Rehearing (August 23, 2019) ....................... 78a
APPENDIX G. Report of Dr. Richard A. Leo, Ph.D,
J.D. (July 12, 2016) .......................................... 80a

App.1a
APPENDIX A
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE EIGHTH CIRCUIT
(JULY 12, 2019)
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________
THOMAS SANDER,

Plaintiff-Appellant,
v.
CITY OF DICKINSON, NORTH DAKOTA;
KYLAN KLAUZER; JEREMY MOSER;
TERRY OESTREICH; DOES 1-10,

Defendants -Appellees.

________________________
No. 18-1560

Appeal from United States District Court for the
District of North Dakota-Bismarck
Submitted: April 15, 2019
Filed: July 12, 2019
[Unpublished]
Before: SMITH, Chief Judge, ARNOLD
and KELLY, Circuit Judges.
PER CURIAM
Thomas Sander sued the City of Dickinson, North
Dakota (“City”), and several of its current or former

App.2a
police detectives for a variety of claims stemming from
Sander’s arrest and prosecution in connection with a
suspected arson fire of a local Catholic high school of
which he was the principal. Sander’s complaint asserted
several federal civil rights claims under 42 U.S.C.
§ 1983 against the detectives related to their alleged
unconstitutional conduct in investigating, interrogating,
and arresting Sander. The complaint also alleged
several causes of action against the City relating to
its hiring, training, and supervision of the detectives,
as well as several other state law causes of action
against all the defendants. The City and the detectives
moved for summary judgment on all claims. The district
court,1 in three detailed and well-considered orders,
granted the City’s and the detectives’ motions for
summary judgment.
Sander now appeals the district court’s grant of
summary judgment to the defendants on his (1) claims
for violations of his federal constitutional right to be
free from coercive interrogation; (2) claims for violations
of his federal constitutional right to be free from a
reckless police investigation; (3) claim for violation of
his federal constitutional right to be free from detainment without due process of law; (4) Monell 2 claims
for violations of his federal constitutional rights; and
(5) false arrest, abuse of process, and deceit claims
under North Dakota law.
We review de novo the district court’s adverse
grant of summary judgment. Revels v. Vincenz, 382
1 The Honorable Daniel L. Hovland, Chief Judge, United States
District Court for the District of North Dakota.
2 Monell v. New York City Dep’t of Social Servs., 436 U.S. 658, 691
(1978).

App.3a
F.3d 870, 874 (8th Cir. 2004). Having carefully reviewed
the parties’ briefs, the record, and the applicable
legal principles, we hold that the district court did
not err in granting summary judgment to the
defendants for the reasons set forth in its orders.
Accordingly, we affirm. See 8th Cir. R. 47B.

App.4a
APPENDIX B
JUDGMENT OF THE UNITED STATES
COURT OF APPEALS FOR THE EIGHTH CIRCUIT
(JULY 12, 2019)
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________
THOMAS SANDER,

Plaintiff-Appellant,
v.
CITY OF DICKINSON, NORTH DAKOTA; KYLAN
KLAUZER; JEREMY MOSER; TERRY
OESTREICH; DOES 1-10,

Defendants-Appellees.

________________________
No. 18-1560

Appeal from United States District Court
for the District of North Dakota-Bismarck
(1:15-cv-00072-DLH)
Before: SMITH, Chief Judge, ARNOLD and KELLY,
Circuit Judges.
This appeal from the United States District Court
was submitted on the record of the district court and
briefs of the parties.
After consideration, it is hereby ordered and
adjudged that the judgment of the district court in

App.5a
this cause is affirmed in accordance with the opinion
of this Court.
July 12, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App.6a
APPENDIX C
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
NORTH DAKOTA GRANTING DEFENDANTS
CITY OF DICKINSON’S AND DOES 1-10’S
MOTION FOR SUMMARY JUDGMENT
(FEBRUARY 5, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
________________________
THOMAS SANDER,

Plaintiff,
v.
THE CITY OF DICKINSON, NORTH DAKOTA;
KYLAN KLAUZER; JEREMY MOSER; TERRY
OESTREICH; AND DOES 1-10,

Defendants.

________________________
Case No. 1:15-cv-72

Before: Daniel L. HOVLAND, Chief Judge, United
States District Court.
Before the Court is Defendants City of Dickinson
and Does 1-10’s “Motion for Summary Judgment” filed
on October 3, 2016. See Docket No. 67. The Plaintiff
filed a response in opposition on October 31, 2016.
See Docket No. 82. Defendants City of Dickinson and
Does 1-10 filed a reply brief on November 14, 2016.

App.7a

See Docket No. 89. For the reasons explained below,

Defendants City of Dickinson and Does 1-10’s motion
for summary judgment is granted.
I.

Background

This case stems from a fire which occurred at
Trinity High School in Dickinson, North Dakota, on
March 3, 2014. The Plaintiff, Thomas Sander, brought
this suit against the Defendants because he believes
he was wrongfully targeted as a suspect, and subsequently arrested in connection with the fire. The
Court has previously outlined the facts in this case in
great detail in its Order, dated February 5, 2018,
granting summary judgment in favor of Defendants
Kylan Klauzer and Jeremy Moser, and will not
reiterate them here. See Docket No. 124.
On June 8, 2015, Sander commenced this lawsuit
against the Defendants1 asserting nineteen separate
causes of action. See Docket No. 1. Sander’s complaint
asserts several federal civil rights claims under 42
U.S.C. § 1983 against the Defendants, relating to
alleged unconstitutional conduct in investigating,
interrogating, and arresting Sander. The complaint
also asserts several causes of action against the City
of Dickinson (“the City”) relating to its training and
supervision of the named Defendants, and alleges
several other state law causes of action against all of
the Defendants, ranging from intentional infliction of
emotional distress to defamation and deceit.

1 Defendant Oestreich, a former Dickinson Police Department
official, has since been elected Sheriff of Stark County, North
Dakota and has left the Dickinson Police Department.

App.8a
II.

Legal Analysis

Summary judgment is appropriate when the
evidence, viewed in a light most favorable to the nonmoving party, indicates no genuine issues of material
fact exist and the moving party is entitled to judgment
as a matter of law. Davison v. City of Minneapolis,
Minn., 490 F.3d 648, 654 (8th Cir. 2007); Fed. R. Civ.
P. 56(a). Summary judgment is not appropriate if there
are factual disputes that may affect the outcome of
the case under the applicable substantive law. Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). An
issue of material fact is genuine if the evidence would
allow a reasonable jury to return a verdict for the
non-moving party. Id.
The Court must inquire whether the evidence
presents sufficient disagreement to require the submission of the case to a jury or if it is so one-sided
that one party must prevail as a matter of law. Diesel
Mach., Inc. v. B.R. Lee Indus., Inc., 418 F.3d 820, 832
(8th Cir. 2005). The moving party bears the burden
of demonstrating an absence of a genuine issue of
material fact. Forrest v. Kraft Foods, Inc., 285 F.3d
688, 691 (8th Cir. 2002). The non-moving party may
not rely merely on allegations or denials; rather, it
must set out specific facts showing a genuine issue
for trial. Id.
The City and Does 1-10 argue the City is entitled
to summary judgment on Sander’s federal claims under
42 U.S.C. § 1983 because Sander cannot produce
evidence of an unconstitutional city policy or custom
that was the driving force behind any alleged constitutional violation. See Docket No. 68. The City and
Does 1-10 also argue Does 1-10 are entitled to
summary judgment on all of Sander’s claims against

App.9a
Does 1-10 because Sander has failed to specifically
identify them, and he cannot prove the personal
involvement required for supervisor liability under
42 U.S.C. § 1983.
A. Sander’s Claims Against the City Under 42
U.S.C. § 1983
Sander’s complaint asserts claims against the
City under Section 1983 for supervisor liability; a
Monell claim for unconstitutional practice and policy;
and a Monell claim for unconstitutional discipline,
training and supervision. See Docket No. 1. The City
argues it is entitled to summary judgment on Sander’s
federal claims to the same extent the individually
named defendants are. See Docket No. 68.
The Eighth Circuit Court of Appeals has
consistently recognized a general rule that, in order
for municipal liability to attach, individual liability
must first be found on an underlying substantive claim.
See Moore v. City of Desloge, Mo., 647 F.3d 841, 849
(8th Cir. 2011); McCoy v. City of Monticello, 411 F.3d
920, 922 (8th Cir. 2005). Similarly, in order to maintain
an action for training or supervisory liability, a
plaintiff must show that the failure to train or supervise
caused the injury. Moore, 647 F.3d at 849. The Court
has previously ruled that Sander has failed to establish
that Officer Kylan Klauzer, Officer Jeremy Moser, or
Terry Oestreich violated Sander’s constitutional rights.
See Docket Nos. 124 and 125. Thus, the Court finds
that Sander cannot maintain his claims against the
City for supervisor liability, unconstitutional practice
and policy, or for unconstitutional discipline, training,
and supervision.

App.10a
The City argues that, even if Sander could
establish a failure by the City with regard to issuing
full Miranda warnings, that failure cannot support
liability under Section 1983. See Docket No. 68, p. 7;
see also Chavez v. Martinez, 538 U.S. 760, 772 (2003)
(“[F]ailure to read Miranda warnings to [a suspect]
did not violate [suspect’s] constitutional rights and
cannot be grounds for a § 1983 action.”); Hannon v.
Sanner, 441 F.3d 635, 636-37 (8th Cir. 2006). The Court
agrees. Because there can be no individual capacity
claim against any of the named defendants for failing
to give Sander the Miranda warnings, it follows that
there can be no municipal liability against the City for
any officer’s failure to give Sander the full Miranda
warnings or for an alleged unconstitutional practice,
policy, or custom not to provide the full Miranda
warnings.
The City also argues it is entitled to summary
judgment on Sander’s federal claims because there is
no evidence to create a dispute of fact as to whether a
policy or custom of the City was the driving force
behind any alleged violation of Sander’s constitutional
rights. See Docket No. 68. Under 42 U.S.C. § 1983, a
municipality may not be held vicariously liable for
the unconstitutional acts of its employees. Mettler v.
Whitledge, 165 F.3d 1197, 1204 (8th Cir. 1999);
Andrews v. Fowler, 98 F.3d 1069, 1074 (8th Cir. 1996)
(local government may not be sued under Section 1983
for injury inflicted solely by its employees or agents
under theory of respondent superior). However, a
municipality may be held liable for the unconstitutional
acts of its officials or employees when those acts
implement or execute an unconstitutional municipal
policy or custom. Mettler, 165 F.3d at 1204. For a

App.11a
municipality to be liable, a plaintiff must prove that
a municipal policy or custom was the “moving force
behind the constitutional violation.” Id.; see also

Board of County Com’rs of Bryan County, Okla. v.
Brown, 520 U.S. 397, 404 (1997) (only a municipality’s
“deliberate” conduct can meet the “moving force”
requirement).

To prove a municipal custom exists, Sander
must satisfy three requirements:
(1) The existence of a continuing, widespread,
persistent pattern of unconstitutional misconduct by the governmental entity’s employees;
(2) Deliberate indifference to or tacit authorization of such conduct by the governmental
entity’s policymaking officials after notice to
the officials of that misconduct; and
(3) Th[e] plaintiff[’s] injur[y] by acts pursuant
to the governmental entity’s custom, i.e.,
[proof] that the custom was the moving
force behind the constitutional violation.

Mettler, 165 F.3d at 1204. It does not appear from
the pleadings that Sander argues the City had any
facially unconstitutional official policies that caused
any deprivation of his rights. Rather, the only municipal
custom Sander identified is the alleged widespread
use of “soft Miranda” warnings. See Docket No. 82.
However, as noted above, the City cannot be held
liable for officers’ failure to give Miranda warnings.
See Hannon, 441 F.3d at 636-37. Sander concedes as
much in his response in opposition. See Docket No.
82, p. 30. The Court is not persuaded by Sander’s
argument that the use of “soft Miranda” warnings
was the moving force behind the other violations he

App.12a
alleges occurred during the investigation, including
unconstitutional interrogation tactics, inadequate
investigation, evidence destruction, and an arrest
without probable cause. As noted previously, the
Court has already held that the officers did not
violate Sander’s constitutional rights. See Docket
Nos. 124 and 125. Further, even if there was a
widespread practice or custom of using the so-called
“soft Miranda,” the failure to give complete Miranda
warnings is not closely related to the ultimate injury
Sander asserts he sustained. See Andrews, 98 F.3d
at 1077. Sander simply cannot demonstrate the close
relationship necessary to conclude that the City’s
failure to properly train the officers caused the
injuries Sander alleges or that the alleged custom of
utilizing the so-called “soft Miranda” warnings was
the moving force behind the alleged constitutional
violations. The Court finds that Sander’s claims against
the City under Section 1983 fail as a matter of law.
B. Sander’s State Law Claims Against The City
Sander’s complaint asserts numerous state law
claims against the City, including false arrest, false
imprisonment, malicious prosecution, intentional infliction of emotional distress, abuse of process, gross
negligence, willful misconduct, deceit, defamation,
vicarious liability, and a violation of Article 1, Section 1 of the North Dakota State Constitution. See
Docket 1. The City argues it is entitled to summary
judgment on Sander’s state law claims against it to
the same extent as the named defendants and adopts
their arguments as its own. See Docket No. 68, p. 14.
The Court has previously found that: 1) the law
enforcement officers were exercising highly dis-

App.13a
cretionary functions in the investigation, interrogation, and arrest of Sander; 2) probable cause was present when prosecution against Sander was initiated;
3) Sander failed to point to evidence in the record to
support a finding of the officers having an ulterior
purpose or motive, other than bringing an offender to
justice or that they used any legal process to gain a
collateral advantage over Sander; 4) the law enforcement officers were entitled to state-law immunity
under N.D.C.C. § 32-12.1-03(3) as a matter of law, 5)
Sander failed to establish a causal connection between
the alleged deception and the harm he alleged he
sustained; 6) the law enforcement officers’ conduct at
issue did not rise to the level of “extreme and outrageous conduct” as required under North Dakota
law; 7) Sander failed to point to any case law to support
his claim for a private right of action under the North
Dakota Constitution, and this Court will not take the
extraordinary step of inferring one; and 8) the law
enforcement officers were entitled to summary judgment in their favor on Sander’s state law claims
against them for false arrest, false imprisonment,
malicious prosecution, abuse of process, gross
negligence, willful misconduct, deceit, defamation, and
the State constitutional claim under Article 1, Section 1 against them. See Docket Nos. 124 and 125.
The Court finds that the City is entitled to summary
judgment on Sander’s state law claims against it for
the same reasons.
The only remaining state law claim Sander
asserted against the City which the Court must resolve
is a claim for vicarious liability. See Docket No. 1, p.
24. The City argues this claim “does not actually
plead any cause of action independent from the other

App.14a
state-law claims Sander alleges in his complaint.”
See Docket No. 68, pp. 14-15. Further, the City argues
it is already vicariously liable for the acts of the
named Defendants done in the scope of their
employment, in light of the applicable statutes on
municipal liability and immunity. See Nelson v.
Gillette, 1997 ND 205, ¶ 12, 571 N.W.2d 332. The City
notes it is “unable to discern any distinction between
the municipal liability under state law for the allegedly
wrongful acts of its employees and the generic
‘Vicarious Liability’ claim Sander alleges” in his
complaint. See Docket No. 68, p. 15. The City argues
it is entitled to summary judgment on Sander’s
vicarious liability claim against it to the same degree
it is entitled to summary judgment on Sander’s other
state law claims. The Court agrees. The Court finds
that Sander’s state law claims against the City fail
as a matter of law.
C. Sander’s Claims Against Does 1-10
The City and Does 1-10 argue Does 1-10 are
entitled to summary judgment on all of Sander’s claims
against Does 1-10 because Sander has failed to
specifically identify the officers, and he cannot prove
the personal involvement required for supervisor
liability under Section 1983. See Docket No. 68.
A plaintiff may assert Section 1983 claims against
a public official acting in his individual capacity and
in his official capacity. Baker v. Chisom, 501 F.3d
920, 923 (8th Cir. 2007). The Eighth Circuit Court of
Appeals has held that if a plaintiff’s complaint is
silent about the capacity in which he is suing the
defendant, the complaint is interpreted as including
only official-capacity claims. Id. Thus, if the complaint

App.15a
does not specifically name the defendant in his
individual capacity, it is presumed he is sued only in
his official capacity. Id.
Sander’s complaint does not assert any claims
against Does 1-10 in their individual capacities. See
Docket No. 1. Thus, the Court will interpret Sander’s
complaint as including only official-capacity claims.
See Baker, 501 F.3d at 923. A suit against a government
official in his or her official capacity is another way of
pleading an action against an entity of which an officer
is an agent. Baker, 501 F.3d at 925. The City and
Does 1-10 argue Does 1-10 are entitled to summary
judgment on the official capacity claims against them
to the same extent the City is. The Court agrees.
To the extent there are any Section 1983 individual
capacity claims against Does 1-10, the City and Does
1-10 argue they are entitled to summary judgment in
their favor because, absent the identification of the
individual fictitious defendants, they cannot defend
the conduct that Sander believes supports liability.
See Docket No. 68. The Court agrees. See Whitson v.
Stone County Jail, 602 F.3d 920, 928 (8th Cir. 2010)
(in Section 1983 cases, an official is only liable for his
own misconduct and is not accountable for other agents’
misdeeds under a theory such as respondeat superior
or supervisor liability).
The City and Does 1-10 also argue they are also
entitled to summary judgment in their favor regarding
the state law claims against Does 1-10, to the extent
there are any individual capacity claims against Does
1-10, because Sander has failed to amend his pleadings
and identify and serve Does 1-10 with this suit. See
Docket No. 68. Sander filed his complaint in June of
2015, discovery has since been completed, and the

App.16a
time to amend the pleading has passed. See Docket
Nos. 1, 29, 45, and 50. Sander has failed to identify
the unnamed police officers identified only as “Does
1-10” in his complaint or in an amended pleading,
and he failed to address any of his claims against
Does 1-10 in his response in opposition to the summary
judgment motion.
Because Sander failed to identify the unnamed
police officers identified as “Does 1-10” in his complaint;
failed to establish the personal involvement required
for supervisor liability under Section 1983, and failed
to specifically address any of his claims against Does
1-10 in his response, the Court dismisses all of Sander’s
claims against Does 1-10 without prejudice. See
Thornton v. U.S. Dept. of Justice, 93 F. Supp. 2d
1057, 1063-64 (D. Minn. 2000).
III. Conclusion
After carefully reviewing the entire record and
for the reasons set forth above, the Court GRANTS
Defendant City of Dickinson and Does 1-10’s “Motion
for Summary Judgment” (Docket No. 67). Because the
Court has dismissed all of Sander’s claims against all
of the Defendants, Sander’s “Motion to Amend
Complaint to Claim Exemplary Damages” (Docket No.
72) is FOUND AS MOOT.
IT IS SO ORDERED.
Dated this 5th day of February, 2018.
/s/ Daniel L. Hovland
Chief Judge
United States District Court

App.17a

App.18a
APPENDIX D
ORDER GRANTING DEFENDANT
TERRY OESTREICH’S MOTION
FOR SUMMARY JUDGMENT
(FEBRUARY 5, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
________________________
THOMAS SANDER,

Plaintiff,
v.
THE CITY OF DICKINSON, NORTH DAKOTA;
KYLAN KLAUZER; JEREMY MOSER; TERRY
OESTREICH; AND DOES 1-10,

Defendants.

________________________
Case No. 1:15-cv-72

Before: Daniel L. HOVLAND, Chief Judge, United
States District Court.
Before the Court is Defendants Terry Oestreich’s
“Motion for Summary Judgment” filed on October 3,
2016. See Docket No. 69. The Plaintiff filed a response
in opposition on October 31, 2016. See Docket No. 81.
Oestreich filed a reply brief on November 21, 2016.
See Docket No. 90. For the reasons explained below,
Oestreich’s motion for summary judgment is granted.

App.19a
I.

Background

This case stems from a fire which occurred at
Trinity High School in Dickinson, North Dakota, on
March 3, 2014. The Plaintiff, Thomas Sander, brought
this suit against the Defendants because he believes
he was wrongfully targeted as a suspect and
subsequently arrested in connection with the fire.
The Court has previously outlined the facts in this
case in great detail in its Order Granting Summary
Judgment in favor of Defendants Kylan Klauzer and
Jeremy Moser, and will not reiterate them here. See
Docket No. 124.
On June 8, 2015, Sander commenced this suit
against the Defendants1 asserting nineteen separate
causes of action. See Docket No. 1. Sander’s complaint
asserts several federal civil rights claims under 42
U.S.C. § 1983 against the Defendants, relating to
alleged unconstitutional conduct in investigating,
interrogating, and arresting Sander. The complaint
also asserts several causes of action against the City
of Dickinson relating to its training and supervision
of the named Defendants, and alleges several other
state law causes of action against all of the Defendants,
ranging from intentional infliction of emotional distress
to defamation and deceit.
II.

Legal Analysis

Summary judgment is appropriate when the
evidence, viewed in a light most favorable to the non1 Defendant Terry Oestreich, a former Dickinson Police Department
official, has since been elected Sheriff of Stark County, North
Dakota and is no longer employed by the Dickinson Police
Department.

App.20a
moving party, indicates no genuine issues of material
fact exist and the moving party is entitled to judgment as a matter of law. Davison v. City of Minneapolis,
Minn., 490 F.3d 648, 654 (8th Cir. 2007); Fed. R. Civ.
P. 56(a). Summary judgment is not appropriate if
there are factual disputes that may affect the outcome
of the case under the applicable substantive law.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). An issue of material fact is genuine if the
evidence would allow a reasonable jury to return a
verdict for the non-moving party. Id.
The Court must inquire whether the evidence
presents sufficient disagreement to require the submission of the case to a jury or if it is so one-sided
that one party must prevail as a matter of law. Diesel
Mach., Inc. v. B.R. Lee Indus., Inc., 418 F.3d 820, 832
(8th Cir. 2005). The moving party bears the burden
of demonstrating an absence of a genuine issue of
material fact. Forrest v. Kraft Foods, Inc., 285 F.3d
688, 691 (8th Cir. 2002). The non-moving party may not
rely merely on allegations or denials; rather, it must
set out specific facts showing a genuine issue for
trial. Id.
Oestreich moves for summary judgment on all of
Sander’s claims against him, arguing he is entitled to
qualified immunity and state law immunity. See Docket
No. 70. Qualified immunity is an entitlement not to
stand trial or face the other burdens of litigation.
Sheets v. Butera, 389 F.3d 772, 776 (8th Cir. 2004).
“Qualified immunity shields government officials from
suit unless their conduct violated a clearly established
constitutional or statutory right of which a reasonable
person would have known.” Littrell v. Franklin, 388
F.3d 578, 582 (8th Cir. 2004) (citation omitted). The

App.21a
Supreme Court has construed qualified immunity
protection to shield “all but the plainly incompetent
or those who knowingly violate the law.” Id. For
qualified immunity to apply, a two-part inquiry is
conducted:
(1) Whether the facts, viewed in the light most
favorable to the plaintiff, demonstrate the
deprivation of a constitutional or statutory
right; and
(2) Whether the right was clearly established
at the time of the deprivation.

Howard v. Kansas City Police Dep’t, 570 F.3d 984,
988 (8th Cir. 2009).

A. Sander’s Federal Law Claims Under 42 U.S.C.
§ 1983
In a 42 U.S.C. § 1983 case, an official is only
liable for his own misconduct and is not accountable
for the misdeeds of other agents under a theory such
as respondeat superior or supervisor liability. Whitson
v. Stone County Jail, 602 F.3d 920, 928 (8th Cir.
2010). Further, the doctrine of qualified immunity
also requires an individualized analysis as to each
officer because a person may be held personally liable
for a constitutional violation only if his own conduct
violated a clearly established constitutional right.
Manning v. Cotton, 862 F.3d 663, 668 (8th Cir. 2017).
Thus, Oestreich is only responsible or liable for his
own behavior, individually.

App.22a
1. Substantive Due Process Claims:
Sander’s 1st and 3rd Claims for Relief
Sander’s complaint asserts he was not properly
advised of the full Miranda warnings, he was subjected
to a coercive interrogation, and the officers recklessly
failed to investigate other leads. Oestreich argues he
is entitled to summary judgment on these claims
because he did not violate a fundamental right of
Sander’s and, even if he did, his conduct was not
conscience-shocking. See Docket No. 70.
Oestreich argues the Eighth Circuit Court of
Appeals has made it clear that defendants may not
be held liable under Section 1983 for the failure to
properly Mirandize a suspect. See Docket No. 70, p.
6. The Eighth Circuit has stated “a litigant cannot
maintain an action under § 1983 based on a violation
of the Miranda safeguards.” Hannon v. Sanner, 441
F.3d 635, 636 (8th Cir. 2006). Because the reading of
Miranda warnings is a procedural safeguard rather
than a right arising out of the Fifth Amendment, the
remedy for a Miranda violation is the exclusion from
evidence of any compelled self-incrimination, not a
Section 1983 action. Id.; Warren v. City of Lincoln,
Neb., 864 F.2d 1436, 1442 (8th Cir. 1989). Even
assuming that Sander’s statements were obtained in
violation of Miranda, Section 1983 does not provide a
remedy for a violation of Miranda. Sander’s exclusive
remedy would have been the suppression of his
statements, and he already received that remedy in
the state district court. See Hannon, 441 F.3d at 636.
Further, Sander’s claim under Section 1983
relating to his Fifth Amendment right not to
incriminate himself fails as a matter of law because
Sander did not proceed to a criminal trial. Statements

App.23a
compelled by police interrogations obviously may not
be used against a defendant at trial, but it is not
until their use in a criminal case that a violation of
the Self-Incrimination Clause occurs. Winslow v. Smith,
696 F.3d 716, 731 n. 4 (8th Cir. 2012); Chavez v.
Martinez, 538 U.S. 760, 767 (2003). In Winslow, three
suspects who pled guilty and one who pled no contest
to murder charges could not bring claims under Section
1983 relating to their Fifth Amendment right not to
incriminate themselves because those statements were
never used at trial. 696 F.3d at 716, n. 4. Like in
Winslow, none of Sander’s statements were used in a
criminal trial. In fact, Sander’s confession was
suppressed by the state district court, and the state
criminal charges against him were ultimately dismissed. A failure to give Miranda warnings, even if
the police obtain an unwarned confession, cannot
alone support Section 1983 liability.
In order to establish a violation of substantive
due process rights, a plaintiff must show (1) that one
or more of their fundamental constitutional rights
were violated, and (2) that the conduct was shocking
to the conscience. Flowers v. City of Minneapolis,
Minn., 478 F.3d 869, 873 (8th Cir. 2007). Whether
conduct shocks the conscience is a question of law.
Folkerts v. City of Waverly, Iowa, 707 F.3d 975, 980
(8th Cir. 2013). The threshold question is whether
the behavior of the governmental officer is so egregious
and outrageous that it may fairly be said to shock the
contemporary conscience. Atkins v. Epperly, 588 F.3d
1178, 1183 (8th Cir. 2009). Conduct intended to injure
will generally rise to the conscience-shocking level,
but negligent conducts falls beneath the threshold of
constitutional due process. Id. The Eighth Circuit has

App.24a
held that investigators shock the conscience when
they (1) attempt to coerce or threaten the criminal
defendant; (2) purposefully ignore evidence of the
defendant’s innocence; or (3) systematically pressure
to implicate the defendant despite contrary evidence.
Folkerts, 707 F.3d at 981. However, an officer’s
negligent failure to investigate inconsistencies or
other leads is insufficient to establish conscienceshocking misconduct. Atkins, 588 F.3d at 1184.
“Fundamental to our system of justice is the
principle that a person’s rights are violated if police
coerce an involuntary confession from him, truthful
or otherwise, through physical or psychological methods
designed to overbear his will.” Wilson v. Lawrence
County, 260 F.3d 946, 952 (8th Cir. 2001). Whether
or not a confession is the involuntary product of coercion is judged by the totality of the circumstances—
including an examination of both the conduct of the
officers and the characteristics of the accused. Id.
“[E]ven though the police use overreaching tactics
such as the use of threats or violence, or the use of
direct or indirect promises, such promises or threats
will not render the confession involuntary unless it
overcomes the defendant’s free will and impairs his
capacity for self-determination.” Sheets, 389 F.3d at
778. Courts are to review the totality of the circumstances, considering “the degree of police coercion,
the length of the interrogation, its location, its continuity, and the defendant’s maturity, education,
physical condition, and mental condition.” Id. at 779.
However, it goes without saying that “the interrogation
of a suspect will involve some pressure.” Id.
Oestreich did not use violence or threats of violence
to extract a confession from Sander during the March

App.25a
4th interview. Although Sander noted in his deposition
that the thought crossed his mind that Oestreich and
Klauzer might resort to physical violence during the
March 4th interview, Oestreich never touched Sander
nor did he make threatening statements towards
Sander. See Docket No. 53-8, p. 79. Sander asserts
“[Oestreich] and Defendant Klauzer – two physicaly
imposing law enforcement officers, one of whom was
armed – pulled their chairs up around Sander, pinning
him into the corner of the interrogation room.” See
Docket No. 81, p. 32. The Court acknowledges Oestreich
and Klauzer were seated close to Sander, and Sander
was essentially seated in the corner of the room during
the interrogation. However, the interview took place
in a standard Dickinson police interview room, and
Oestreich and Klauzer’s proximity to Sander was not
unduly coercive or threatening.
Sander asserts he was prevented from using the
restroom during the March 4th interview. Upon a
careful review of the video recording of the interview,
the Court notes there was an approximately 42-minute
delay after Sander initially requested to use the
restroom. While the officers did indeed delay Sander’s
access to the restroom, the delay was not unreasonably
lengthy and does not alone shock the conscience. Other
courts have determined that similar delays do not
shock the conscience. See Dowell v. Lincoln County,
927 F. Supp. 2d 741, 752 (E.D. Mo. 2013) (thirty-four
minute delay in access to the restroom did not shock
the conscience).
The statement to an accused that telling the truth
“would be better for him” does not constitute an implied
or express promise of leniency for the purpose of
rendering his confession involuntary. Simmons v.

App.26a

Bowersox, 235 F.3d 1124, 1133 (8th Cir. 2001). Further,

officers may elicit statements by claiming not to
believe the accused’s denials. Id. Interrogation tactics
such as deception and raised voices also do not render
a confession involuntary unless the overall impact of
the interrogation caused the defendant’s will to be
overborne. Id.

It goes without saying that an interrogation of a
suspect will involve some pressure as the very purpose is to elicit a confession. Sheets, 389 F.3d at 779.
However, in reviewing the totality of the circumstances, the Court finds that Oestreich’s statements
and actions during the March 4th interview did not
shock the conscience. Courts are to consider the
degree of police coercion, the length of the interrogation, its location, its continuity, and the defendant’s
maturity, education, physical condition, and mental
condition. See id. The interrogation on March 4th
took place in a Dickinson police interview room
around 11:00 a.m., and Sander arrived voluntarily at
Oestreich’s request. The interview lasted approximately
three and a half hours, and the first hour did not consist of probing or accusatorial questioning. No
violence or physical threats were used. Further, Sander
is an extremely well-educated adult; he graduated
from college, received his master’s in education, and
he was in a graduate program for theology at the
time of the interview. See Docket No. 65-9, pp. 4-5. In
reviewing the totality of the circumstances, the Court
finds that the tactics employed by Oestreich during the
March 4th interview do not rise to the level of malice
or sadism resulting in the inhumane abuse of power
that literally shocks the conscience. See Sheets, 389
F.3d at 779.; Moran v. Clarke, 296 F.3d 638, 647 (8th

App.27a
Cir. 2002). Therefore, the Court finds Oestreich is
entitled to summary judgment on Sander’s substantive
due process claim against him.
Sander’s complaint also alleges Oestreich
recklessly failed to investigate other leads, namely
failing to investigate James Gordon as a viable suspect.
Oestreich argues he is entitled to qualified immunity
on this claim because there is no evidence that he
failed to follow any lead or otherwise violate a clearly
established right of Sander’s. The Eighth Circuit
recognized a substantive due process cause of action
for reckless investigation in Wilson v. Lawrence County,
Mo., where the Circuit identified the liberty interest
at stake as the interest in obtaining fair criminal
proceedings. 260 F.3d at 946. The test for whether
state officers’ actions violate this protected liberty
interest is whether those actions shock the conscience.
Amrine v. Brooks, 522 F.3d 823, 833 (8th Cir. 2008).
Mere negligent failure to investigate does not violate
substantive due process, nor do allegations of gross
negligence give rise to a constitutional violation. Id.
The Eighth Circuit has noted that even if police
officers credit one individual’s statement over another,
and they are ultimately incorrect in their conclusions,
qualified immunity protects officers from such types
of “mistaken judgments.” Brockinton v. City of
Sherwood, Ark., 503 F.3d 667, 672 (8th Cir. 2007).
Oestreich argues that the decision to discredit Gordon’s
“confession” was not entirely unreasonable and does
not prove that officers conducted a reckless investigation. See Docket No. 70, p. 10. The Court agrees.
Further, Sander has not demonstrated that Oestreich’s
conduct during the investigation into the Trinity fire
“shocked the conscience.” Therefore, the Court finds

App.28a
that Oestreich is entitled to qualified immunity on
this claim.
2. Conspiracy to Violate Civil Rights –
Sander’s 5th Claim for Relief
Sander’s complaint asserts a claim against
Oestreich for conspiracy to violate his civil rights.
See Docket No. 1, p. 11. To prove a 42 U.S.C. § 1983
conspiracy claim, Sander must show: (1) that the
defendant conspired with others to deprive him of
constitutional rights; (2) that at least one of the
alleged co-conspirators engaged in an overt act in
furtherance of the conspiracy; and (3) that the overt
act injured the plaintiff. White v. McKinley, 519 F.3d
806, 814 (8th Cir. 2008). Oestreich argues Sander
cannot show he was deprived of a constitutional right,
and Sander was not injured by the officers’ failure to
provide the full Miranda warnings because his
confession was suppressed by the state district court.
See Docket No. 70. The Court agrees. As discussed
above, the officers’ failure to provide full Miranda
warnings to Sander during the March 4th interview
is not a constitutional violation and is not independently
actionable under Section 1983. See Hannon, 441 F.3d
at 636. Because Sander cannot show he was deprived
of a constitutional right or that he was injured,
Oestreich is entitled to summary judgment on Sander’s
conspiracy claim against him.
3. Failure to Preserve Exculpatory
Evidence—Sander’s 2nd and 12th
Claim for Relief
Oestreich argues he is entitled to summary judgment on Sander’s allegations that he suppressed or

App.29a
failed to disclose exculpatory evidence. An investigating
officer’s failure to preserve evidence potentially useful to the accused or his failure to disclose such
evidence does not constitute a denial of due process
in the absence of bad faith. White, 519 F.3d at 814.
Consequently, to be viable, Sander’s claim must
allege bad faith to implicate a clearly established
right under Brady. Id. Even assuming that Oestreich
failed to disclose exculpatory evidence, the Court finds
there was no Brady violation because Sander was not
convicted. See Livers v. Schenck, 700 F.3d 340, 359
(8th Cir. 2012). In Livers, the Eighth Circuit determined the investigating officers were entitled to
qualified immunity on pretrial detainees’ Section
1983 claim alleging the officers failed to disclose exculpatory evidence in violation of their due process
rights, since a pretrial right to disclosure of such
evidence, if it existed at all, was not clearly established.
700 F.3d at 359-60. Because Sander was not convicted, he did not suffer the effects of an unfair trial,
and his claim against Oestreich for failure to preserve exculpatory evidence fails as a matter of law.
See id.
4. False Arrest and False Imprisonment –
Sander’s 17th Claim for Relief
Underlying many of Sander’s federal and state
law claims is his assertion that he was detained on
March 4th without probable cause. Oestreich argues
he is entitled to summary judgment because the officers
had sufficient probable cause to arrest Sander. See
Docket No. 70.
A false arrest claim under Section 1983 fails as a
matter of law where the officer had probable cause to

App.30a
make the arrest. Kurtz v. City of Shrewsbury, 245
F.3d 753, 758 (8th Cir. 2001). A warrantless arrest is
consistent with the Fourth Amendment if it is
supported by probable cause, and an officer is entitled
to qualified immunity if there is at least “arguable
probable cause.” Borgman v. Kedley, 646 F.3d 518,
522-23 (8th Cir. 2011). An officer has probable cause
to make a warrantless arrest when the totality of the
circumstances at the time of the arrest are sufficient
to lead a reasonable person to believe that the defendant
has committed or is committing an offense. Id. at 523.
Arguable probable cause exists even when an officer
mistakenly arrests a suspect believing it is based in
probable cause if the mistake is “objectively reasonable.”
Id. An arresting officer’s state of mind (except for the
facts that he knows) is irrelevant to the existence of
probable cause. Devenpeck v. Alford, 543 U.S. 146,
593 (2004). Although the probable cause standard
allows room for reasonable mistakes by a reasonable
person, the qualified immunity standard protects “all
but the plainly incompetent or those who knowingly
violate the law.” Greenman v. Jessen, 787 F.3d 882,
888 (8th Cir. 2015).
Oestreich argues there was sufficient probable
cause to arrest Sander and sufficient circumstantial
evidence to indicate Sander was likely the individual
who started the fire, including: (1) Sander had a
motive as he had recently been told his contract was
not being renewed at the end of the school year; (2)
Sander had access to the school, the main office, the
vault, and his office; (3) Sander had an opportunity
to start the fire as he was working late at the school
in the main office where the vault is located the
evening before the fire, and he left the school shortly

App.31a
before Storey heard the fire alarm; (4) Sander was
one of the few people who had the combination to the
vault and knew how to open it; and (5) Sander found
the blue sticky note on his laptop which indicated the
fire was intentionally set. See Docket No. 70.
Given all these facts and the absence of viable
alternative suspects with comparable means, motive,
and opportunity at the time of the interview, Oestreich
argues there was arguable probable cause to arrest
Sander when he was detained during the March 4th
interview. Sander’s response argues that critical
details in his confession were “inconsistent with the
manner in which the fire was actually started.” See
Docket No. 81, p. 11. However, Sander’s argument is
misplaced. Other facts uncovered later in the
investigation which may diminish probable cause, such
as a potential new suspect and inconsistencies in
witness statements, do not undermine the analysis
because the question regarding probable cause involves
what the officers knew at the time on March 4th. The
Court finds there was arguable probable cause to arrest
Sander when he was detained on March 4th. Further,
Oestreich is entitled to qualified immunity if there is
at least “arguable probable cause.” See Borgman, 646
F.3d at 522-23. Accordingly, Sander’s claim against
Oestreich for false arrest and false imprisonment
under Section 1983 fails as a matter of law.
Sander’s complaint also asserts a claim for
“Deliberate Fabrication and Material Omissions in
the Arrest Warrant Affidavit.” See Docket No. 1, pp.
22-23. Sander’s complaint does not specify what the
deliberate fabrication or material omissions in the
arrest warrant affidavit were. Oestreich argues he is
entitled to summary judgment in his favor on this

App.32a
claim because Oestreich did not prepare or sign the
arrest warrant affidavit and, even if he did, he is
entitled to qualified immunity. See Bagby v. Brodhaver,
98 F.3d 1096, 1099 (8th Cir. 1996) (qualified immunity
is appropriate if defendant has been accused of
submitting a recklessly false affidavit and if a corrected
affidavit would still provide probable cause to arrest
or search). Because the Court has already previously
determined there was probable cause to arrest Sander
on March 4th, even without Sander’s confession,
Oestreich is entitled to qualified immunity. Sander’s
claim against him fails as a matter of law.
B. Sander’s State Law Claims
1. False Arrest and False Imprisonment—
Sander’s 6th Claim for Relief
Oestreich argues probable cause is a defense to a
false arrest claim, the officers had sufficient probable
cause to arrest Sander, and he is entitled to
summary judgment in his favor on Sander’s state law
claim for false arrest and false imprisonment. See
Docket No. 70, pp. 17-18.
A police officer who has probable cause to believe
a suspect has committed a crime is not liable for the
state law tort of false arrest simply because the
suspect is later proven innocent or the charges are
dismissed. See Kurtz, 245 F.3d at 758. A plaintiff is
not entitled to recover if the arrest is supported by
proper legal authority. See Copper v. City of Fargo,
905 F. Supp. 680, 702 (D.N.D. 1994). Further, probable
cause may serve as a defense if it validates the arrest
itself. Id. The North Dakota Supreme Court has held
that when determining whether an officer had

App.33a
probable cause to arrest a suspect, the Court applies
a totality-of-the-circumstances standard and reviews
the facts and circumstances known by the officer.
State v. Berger, 2004 ND 151, ¶ 11, 683 N.W2.d 897.
Whether probable cause exists is a question of law.
Id. In order to establish probable cause, the officer
does not have to possess knowledge of facts sufficient
to establish guilt; all that is required is knowledge
that would furnish a prudent person with reasonable
grounds for believing a violation has occurred. Id.
Even though conduct may have an innocent
explanation, probable cause “is the sum total of layers
of information and the synthesis of what the police
have heard, what they know, and what they observed
as trained officers.” Id. As discussed above, the Court
has previously determined there was sufficient
probable cause to arrest Sander; therefore, Sander’s
state law claim against Oestreich for false arrest and
false imprisonment fails as a matter of law.
Further, Oestreich also argues he is entitled to
state law immunity. See Docket No. 70, p. 29. Section
32-12.1-03(3)(c) of the North Dakota Century Code
sets forth the discretionary function exception to
liability of a political subdivision or political subdivision employee. Section 32-12.1-03, N.D.C.C., states, in
pertinent part: “A political subdivision or a political
subdivision employee may not be held liable under
this chapter for . . . [t]he decision to perform or the
refusal to exercise or perform a discretionary function or duty, whether or not such discretion is
abused . . . ” The North Dakota Supreme Court has
interpreted this subsection to provide political subdivisions and their employees immunity from liability
for allegations of negligence in the exercise of a dis-

App.34a
cretionary function. Copper, 905 F. Supp. at 702; see
Sande v. City of Grand Forks, 269 N.W.2d 93, 98 (N.D.
1978); McLain v. Midway Township, 326 N.W.2d 196,
199 (N.D. 1982). Therefore, Oestreich is immune
from liability for Sander’s state law claims for false
arrest and false imprisonment, regardless of whether
he was negligent or whether he exercised due care,
provided that he can demonstrate that the decision to
detain or arrest Sander was a discretionary function.
“There is a substantial amount of independent judgment required to make a decision to arrest or to conclude whether probable cause exists.” Copper, 905 F.
Supp. at 702; see Richmond v. Haney, 480 N.W.2d
751, 759 (N.D. 1992). The Court finds Oestreich was
exercising highly discretionary functions in the
investigation and arrest of Sander, and he is entitled
to state law immunity as a matter of law, and therefore
summary judgment on these claims.
2. Malicious Prosecution – Sander’s 7th
Claim for Relief
With respect to Sander’s state law malicious
prosecution claim against Oestreich, the Court finds
that Sander has not established a triable issue of fact
on every essential element of the claim. In order to
maintain an action for malicious prosecution, one
must establish, at a minimum, the following elements:
1.

Institution of a criminal proceeding by the
defendant against the plaintiff;

2.

Termination of the proceeding in favor of
the accused;

3.

Absence of probable cause for the proceeding;
and

App.35a
4.

Malice.

Kummer v. City of Fargo, 516 N.W.2d 294, 298 (N.D.
1994); Richmond, 480 N.W.2d at 755.
Even assuming that Sander could establish
Oestreich had instituted a criminal proceeding against
him and that it terminated in his favor, Sander must
still establish the absence of probable cause and
malice. As the Court has already previously addressed,
probable cause was present when prosecution against
Sander was initiated. Further, regarding the element
of malice, the North Dakota Supreme Court has stated,
“Overzealous police techniques which lead to a
successful defense do not, without more, constitute
malice or ulterior purpose sufficient to support a tort
claim.” Kummer, 516 N.W.2d at 298. Absent some
evidence that Oestreich was driven by some motive
other than to bring an offender to justice, there can
be no claim of abuse of process or malicious prosecution.
Id.
Even if Oestreich’s actions could fairly be said to
constitute overzealous police work, Sander’s state
law claim for malicious prosecution against him must
fail because there is no evidence in the record to
support a jury finding of an ulterior motive beyond
Sander’s conclusory allegations and unsupported
theory that Oestreich had a personal bias against
Sander based on Oestreich’s daughter’s prior experiences and interactions with Sander. Oestreich
also argues he is entitled to state law immunity,
under N.D.C.C. § 32-12.1-03, as the decisions he made
during the investigation were highly discretionary.
See Copper, 905 F. Supp. at 702; see Sande v. City of
Grand Forks, 269 N.W.2d 93, 98 (N.D. 1978); McLain
v. Midway Township, 326 N.W.2d 196, 199 (N.D. 1982).

App.36a
The Court agrees. Sander’s state law claim of malicious
prosecution against Oestreich fails as a matter of law.
3. Intentional Infliction of Emotional
Distress—Sander’s 8th Claim for Relief
Oestreich asserts he is entitled to summary
judgment on Sander’s state law claim for intentional
infliction of emotional distress because Oestreich’s
conduct was not “extreme and outrageous” as a matter
of law. The elements of a tort action for the intentional
infliction of emotional distress are extreme and outrageous conduct that is intentional or reckless and
causes severe emotional distress. Kautzman v.
McDonald, 2001 ND 20, ¶ 18, 621 N.W.2d 871. Conduct
which qualifies as extreme and outrageous is limited
to conduct which exceeds “all possible bounds of
decency” and which “would arouse resentment against
the actor and lead to an exclamation of ‘Outrageous’
by an average member of the community.” Id. The court
must initially decide whether the alleged conduct
may reasonably be regarded as “extreme and outrageous.” Id.
Sander’s complaint argues the Defendants engaged
in extreme and outrageous conduct by “bullying,
coercing, and intimidating” Sander into making a “false
confession” and persisting in prosecuting Sander “when
another individual had admitted to starting the fire.”
See Docket No. 1, p. 13. Again, Sander’s complaint
refers to the “Defendant Police Officers” collectively,
and does not state which particular officer engaged in
certain conduct. See Docket No. 1, p. 13-14. However,
many of Sander’s allegations of extreme and outrageous
conduct appear to relate to the March 4th interview.
Oestreich had legitimate law enforcement objectives

App.37a
in interviewing Sander as he was attempting to
determine the identity of a possible arsonist of a local
high school. The Court finds that an average member
of the community would not exclaim “Outrageous!” upon
learning of Oestreich’s actions in this case. As discussed
above with respect to the constitutionality of the
March 4th interview, the interview did not deviate
from practices and tactics commonly employed in police
interrogations. Further, as discussed above, Oestreich
did not violate Sander’s constitutional rights by
failing to investigate other potential suspects. The
Court finds as a matter of law that the conduct at
issue cannot be said to exceed “all possible bounds of
decency” or rise to the level of “extreme and outrageous
conduct” as required under North Dakota law.
Kautzman, 2001 ND 20, ¶ 18. Therefore, summary
judgment on Sander’s claim of intentional infliction
of emotional distress against Oestreich is appropriate.
4. Abuse of Process-Sander’s 9th Claim
for Relief
The Court finds Sander’s state law abuse of process
claim against Oestreich fails as a matter of law. The
tort of abuse of process involves an individual who
uses a legal process, whether criminal or civil, against
another primarily to accomplish a purpose for which
it was not designed. Kummer, 516 N.W.2d at 297. The
essential elements of abuse of process include: (1) an
ulterior purpose; and (2) a willful act in the use of the
process not proper in the regular conduct of the
proceeding. Id. The North Dakota Supreme Court has
noted that the improper purpose usually “takes the
form of coercion to obtain a collateral advantage, not
properly involved in the proceeding itself.” Id. As
noted above regarding the malicious process claim,

App.38a
Sander has failed to point to evidence in the record to
support a finding that Oestreich had an ulterior purpose
or motive, other than bringing an offender to justice
or that he used any legal process to gain a collateral
advantage over Sander. Sander makes a point to note
that Oestreich was familiar with Sander and his
behavior, due to the fact that Oestreich’s daughter
had previously worked with Sander, and Sander
concludes that Oestreich’s investigation was colored
by a bias against Sander. However, Sander has failed
to point to anything in the record which demonstrates
or even suggests that Oestreich acted out a personal
animosity or bias against Sander. Accordingly, Sander’s
state law claim of abuse of process against Oestreich
fails as a matter of law, and Oestreich is entitled to
summary judgment in his favor.
5. Gross
Negligence
Misconduct—Sander’s
Claims for Relief

and
10th

Willful
& 13th

Sander’s complaint alleges claims of “gross
negligence” and “willful misconduct” against Oestreich.
See Docket No. 1, pp. 15-16, 18-19. The Court has
already concluded that a reasonable officer could
have believed there was sufficient probable cause to
arrest Sander on March 4th, and that doing so was a
discretionary act. If a reasonable officer could have
believed that the arrest was lawful, their actions
cannot constitute gross negligence or willful misconduct.
See Wishnatsky v. Bergquist, 550 N.W.2d 394, 403
(N.D. 1996). The Court finds that Sander’s state law
claims for gross negligence and willful misconduct
against Oestreich fail as a matter of law, and summary
judgment is appropriate.

App.39a
6. North Dakota Constitution Claim—
Sander’s 11th Claim for Relief
Sander asserts a claim for relief under Article 1,
Section 1 of the North Dakota State Constitution.
See Docket No. 1, p. 16. Article 1, Section 1 of the
North Dakota Constitution states:
All individuals are by nature equally free
and independent and have certain inalienable
rights, among which are those of enjoying
and defending life and liberty; acquiring,
possessing and protecting property and
reputation; pursuing and obtaining safety
and happiness; and to keep and bear arms
for the defense of their person, family,
property, and the state, and for lawful
hunting, recreational, and other lawful purposes, which shall not be infringed.
Sander has failed to point to any case law to support
his claim for a private right of action under the state
constitution, and this Court will not take the extraordinary step of inferring one. The Court finds
Oestreich is entitled to summary judgment as a matter
of law on Sander’s claim against him under Article 1,
Section 1 of the North Dakota Constitution.
7. Deceit—Sander’s 14th Claim for Relief
Sander’s complaint alleges a claim of deceit against
Oestreich and outlines various alleged false statements
the officers made to Sander. See Docket No. 1, p. 19.
Again, Sander’s complaint does not distinguish which
specific officer made which alleged false statements;
rather he refers to them collectively as “Defendant
Police Officers” or “Defendants.” See Docket No. 1, p.

App.40a
19. However, the statements Sander refers to in his
complaint were presumably made during the March 4th
interview.
“One who willfully deceives another with intent
to induce that person to alter that person’s position
to that person’s injury or risk is liable for any damage
which that person thereby suffers.” N.D.C.C. § 9-1003. Deceit under N.D.C.C. § 9-10-02 applies where
there is no contract between the parties. Erickson v.
Brown, 2008 ND 57, ¶ 24, 747 N.W.2d 34. Deceit is
defined as:
1.

The suggestion as a fact of that which is not
true by one who does not believe it to be
true;

2.

The assertion as a fact of that which is not
true by one who has no reasonable ground
for believing it to be true;

3.

The suppression of a fact by one who is
bound to disclose it, or who gives information
of other facts which are likely to mislead for
want of communication of that fact; or

4.

A promise made without any intention of
performing.

N.D.C.C. § 9-10-02.
The Court finds that Sander has failed to establish
a causal connection between the alleged deception
and the harm he alleged he sustained. See Grandbois
and Grandbois, Inc. v. City of Watford City, 2004 ND
162, ¶ 24, 685 N.W.2d 129 (holding police officers’
deception regarding misrepresentations on employment
applications for bartender positions was insufficient
to prove a causal connection between the omission

App.41a
and the bar’s subsequent financial losses following
undercover officers’ multiple drug arrests). The causal
connection between the alleged deception, namely the
misleading and lying about the evidence in the case,
and the ultimate harm which Sander alleges, being
prosecuted, is lacking because there was arguable
probable cause to arrest Sander, independent from
his confession. Further, Sander failed to identify any
authority for holding a law enforcement officer liable
under that tort for conduct during an official police
interrogation.
8. Defamation—Sander’s 18th Claim for
Relief
Sander brought a claim of defamation against
Oestreich, asserting “Defendant Officers and Detectives
made false and unprivileged statements indicating
that Tom Sander was guilty of starting the Trinity
Fire and that he would be convicted and punished for
that crime.” See Docket No. 1, p. 24. It is unclear
which alleged statements Sander believes are
actionable, or which statements were made by
Oestreich. Again, Sander’s complaint does not distinguish which specific defendant made such
statements, rather he refers to them collectively as
“Defendant Police Officers” or “Detectives.” See Docket
No. 1, p. 24.
To be defamatory, a statement must be false and
unprivileged. See N.D.C.C. § 14-02-03; N.D.C.C. § 1402-04; Mr. G’s Turtle Mountain Lodge, Inc. v. Roland
Tp., 2002 ND 140, ¶ 33, 651 N.W.2d 625. Any statement
allegedly made regarding Sander being charged in
connection with the Trinity fire could not support
liability because it was not false, as Sander was, in

App.42a
fact, charged. The Court finds that Oestreich is entitled
to summary judgment as a matter of law on Sander’s
defamation claim.
III. Conclusion
After carefully reviewing the entire record and
for the reasons set forth above, the Court GRANTS
Defendant Oestreich’s “Motion for Summary Judgment”
(Docket No. 69).
IT IS SO ORDERED.
Dated this 5th day of February, 2018.
/s/ Daniel L. Hovland
Chief Judge
United States District Court

App.43a
APPENDIX E
ORDER GRANTING DEFENDANTS
KYLAN KLAUZER AND JEREMY MOSER’S
MOTION FOR SUMMARY JUDGMENT
(FEBRUARY 5, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
________________________
THOMAS SANDER,

Plaintiff,
v.
THE CITY OF DICKINSON, NORTH DAKOTA;
KYLAN KLAUZER; JEREMY MOSER; TERRY
OESTREICH; AND DOES 1-10,

Defendants.

________________________
Case No. 1:15-cv-72

Before: Daniel L. HOVLAND, Chief Judge, United
States District Court.
Before the Court is Defendants Kylan Klauzer and
Jeremy Moser’s “Motion for Summary Judgment” filed
on September 9, 2016. See Docket No. 51. The Plaintiff
filed a response in opposition on September 30, 2016.
See Docket No. 65. Defendants Klauzer and Moser filed
a reply brief on October 14, 2016. See Docket No. 76.
For the reasons explained below, Defendants Klauzer
and Moser’s motion for summary judgment is granted.

App.44a
I.

Background

This case stems from a fire which occurred at
Trinity High School in Dickinson, North Dakota, on
March 3, 2014. The Plaintiff, Thomas Sander,
essentially brought this suit against the Defendants
because he believes he was wrongfully targeted as a
suspect, and subsequently arrested, in connection
with the fire.
On the morning of March 3, 2014, Dickinson police
officers were dispatched to reports of a fire at Trinity
High School (“Trinity”). See Docket No. 53-1, p. 5.
Dickinson police officers Casey Brosten, Steven
Mattson, Hunter Easterling, and Matthew Hanson
were the first to arrive on scene. The officers were
informed by dispatch that the fire was contained in
the vault area of the school’s main office. Officer
Hanson grabbed a fire extinguisher and ran into the
building; he saw smoke filling the hallways and
coming from the main office but initially did not see
any flames. The officers waited for the Dickinson
Fire Department to arrive, and monitored the
building for flames. When Officer Hanson saw flames
begin to come out of the vault and into the office, he
used his fire extinguisher to push back the flames,
but was unable to go any further into the office due
to the extreme smoke. Eventually, the Dickinson Fire
Department arrived and began extinguishing the
fire.
At the scene, Officer Hanson spoke with Robert
Storey, a teacher at Trinity, who was living in an
apartment in the school. See Docket No. 53-1, p. 5.
Storey said he arrived at the school at 8:30 p.m. and
saw the Plaintiff, Thomas Sander, then-principal of
Trinity, in his office, noting it was common for Sander

App.45a
to work late. Storey said he fell asleep and woke to
the fire alarm at approximately 12:15-12:20 a.m. Storey
did not smell or see anything unusual and went outside
to wait for emergency personnel to arrive. After waiting
approximately five minutes, no one had arrived in
response to the alarm, and he attempted to call Sander.
Storey eventually went to Sander’s residence which
was across the street from the school. Storey and
Sander returned to the school, entered the north gym
door, and smelled smoke. Storey and Sander went towards the office, Sander opened the vault, and smoke
poured out. Storey said he could not see flames, but
could hear crackling. Storey said Sander called 911,
and they went outside until emergency personnel
arrived.
Officer Hanson also spoke with Sander at the
scene. Sander told him he was “certain” he left the
school at 11:50 p.m. the previous night. See Docket
No. 53-1, p. 5. Sander said he went home and was
sleeping when Storey woke him at 12:30 a.m. to tell
him about the fire alarm. Sander said they went back
to the school, entered the north gym door, smelled
smoke, and went towards the main office. Sander said
he went to his office and grabbed his laptop. Sander
said he saw smoke coming from the vault, he opened
the door, and smoke “poured” out. See Docket No. 531, p. 6. Sander said he went back to his office and
called 911 from his office phone around “1ish.” Sander
said he had previously gone into the vault at 9:30
p.m. to get extra office supplies, and the vault door
seemed to open “easy.” When asked to clarify, Sander
pulled out a combination to the safe from his pocket
and said he did not have to put the entire combination
in, the safe had just opened. When Officer Hanson

App.46a
asked if Sander forgot to lock the safe, Sander said
he may have or someone else could have opened it up.
When Officer Hanson asked Sander if he knew of any
other information which could possibly help solve
how the fire started, Sander said Andrew DesRosier,
the athletic director at Trinity, had been in the main
office at 10:30 p.m. to make copies which Sander said
was very odd and unusual. Sander noted DesRosier left
at 10:40 p.m., but was unsure if he left the building
or just the office. Officer Hanson noted Sander would
not maintain eye contact and displayed “signs of
deception,” appearing “very eager” to give alternative
options as to what caused the fire and “very nervous
and uneasy with the conversation” when Officer Hanson
mentioned the police would be taking the investigation
seriously.
After their conversation, Sander got into a pickup
with Storey and other Trinity officials who had arrived.
See Docket No. 53-1, p. 6. After briefing with another
officer, Officer Hanson returned to speak with Sander
and Storey. Sander exited the vehicle and told Officer
Hanson, “I have not opened this since I got it from
my office,” and proceeded to open his laptop, revealing
a blue sticky note that said “I will bring this school to
its knees.” Officer Hanson turned the laptop and note
over to Officer Jeremy Moser, the responding
investigator. Officer Hanson asked Officer Casey
Brosten to wait with Sander and Storey until they
could be transported to the law enforcement center
(“LEC”) to give their statements. As Officer Brosten
drove Sander and Storey to the LEC, Officer Brosten
noted Sander appeared “very nervous” and “began to
sweat profusely from his face,” despite the fact that it
was very cold outside. See Docket No. 53-1, p. 21.

App.47a
Sander and Storey were put into separate interview
rooms at the LEC and agreed to provide written
statements about the incident. See Docket No. 53-1,
p. 9. Neither Sander nor Storey were read the Miranda
warnings.
Officer Moser first interviewed Storey. See Docket
No. 53-1, p. 9. Storey confirmed he had seen Sander
working in his office around 8:30 p.m. when he returned
to Trinity that evening. Storey then went to his
apartment located in the school, read a book, and
went to bed around 9:30 p.m. Storey confirmed he woke
up to the fire alarm and after waiting briefly for the
fire department to respond, he called Sander and got
no answer. Storey called Rich Holgard, who Sander
lived with, and informed him the fire alarm was going
off. Storey then walked to Holgard’s home and spoke
with him. They woke Sander up, and Storey and Sander
walked back to the school to check the alarm and
smelled smoke when they arrived. While inside, the
two separated, and Storey went to the cafeteria and
garage to try and locate the source of the smoke. Storey
returned to the office area and saw Sander open the
vault door and smoke “billowed out.” Storey confirmed Sander went to his office and called the police.
When asked if Storey had any suspicions on who
would have started the fire, Storey said Sander told
him DesRosier was in the officer earlier in the
evening, but Storey did not believe DesRosier would
have started the fire, and he did not think DesRosier
had access to the vault.
Officer Moser next interviewed Sander. See Docket
No. 53-1, p. 9. Sander recounted he worked until 11:50
p.m., drove home to Holgard’s house, and was woke
up by Holgard at approximately 12:45 a.m. See Docket

App.48a
No. 53-1, pp. 9-10. Sander said Holgard told him the
school’s fire alarm was going off. See Docket No. 531, p. 10. Sander said he and Storey walked back to
the school, entered the building, and immediately
smelled smoke. Sander explained he went to his office
where the alarm panel is located, he checked the main
office where there was more smoke, and opened the
vault after noticing a lot of smoke coming out of it.
Sander noted only a few people, including himself,
have access to the vault. Sander said he went to his
office, called 911, and took his laptop from his office.
Sander thought the fire was potentially caused by
faulty wiring because it was an old building and had
not been updated. Sander said that while watching
the fire from Holgard’s vehicle, he opened his laptop
and found the blue sticky note that said “I will bring
this school to its knees.” Sander also noted the fire
may not have been started by faulty wiring and that
somebody “arsoned it on purpose.” Sander speculated
the fire may have been set by someone with a grudge
against the school, and the person must have been
someone that knew Sander. Sander suggested a
“suspect” worth investigating would be Trinity’s athletic
director, Desrosier, but acknowledged Desrosier did
not have the combination for the vault. When Moser
asked Sander what he thought the note meant, Sander
said it was probably written by someone who wanted
to damage or burn the school or destroy some transcripts or files. When questioned whether or not the
files would have been backed up electronically,
Sander said he did not believe the older transcripts
or personnel files were electronically stored.
Sander noted that, in February, he had found out
his contract was not being renewed at the end of the

App.49a
school year because he was not part of the long-term
plan, but that he had hoped to stay on for a few years.
See Docket No. 53-1, p. 11. Officer Moser asked Sander
if his vehicle contained anything in reference to the
fire, Sander said no, and said officers were welcome
to search his vehicle and bedroom. Moser and Detective
Travis Leintz drove Sander to Holgard’s residence
and Sander allowed them to search his bedroom and
his car, neither of which revealed anything of interest.
Later on March 3, 2014, Terry Oestreich, a
Dickinson police investigator at the time, met with
several school officials, including Monsignor Patrick
Schumacher, Steve Glasser, Father Kregg Hochhalter,
Richard Holgard, and Andrew DesRosier about the fire.
See Docket No. 53-1, p. 27. Holgard generally confirmed
the timeline of Storey’s and Sander’s statements.
When Holgard was notified of the fire, he drove to the
school, and waited with Sander, Storey, and Glasser. At
some point while Sander was sitting in Holgard’s
vehicle, Sander opened his laptop, and told the others
there was a sticky note and read it aloud. Holgard
noted Sander became anxious and wanted to show the
note to the police officers. DesRosier confirmed he
was working at the school the previous night, but
had left at approximately 10:30 p.m. See Docket No.
53-1, p. 28.
The following day, on March 4, 2014, Oestreich
contacted Sander inviting him back to the LEC for a
second interview. See Docket No. 53-1, p. 31. The
interview began around 11:00 a.m. For approximately
the first half hour, Sander and Oestreich discussed
personal histories and interests. See Docket No. 58

App.50a
(Exhibit L)1. Oestreich then informed Sander that he
was not under arrest, he could go anytime he wanted,
and anything he said could be used for the investigation.
See Docket No. 58 at 00:27. The next half hour consisted
of Sander explaining his whereabouts and actions on
the day of the fire; during that time, Sander spoke
with relatively minimal interruptions by Oestreich.
See Docket No. 58 at 00:30. Only into the second hour
did Oestreich first indicate that they were considering
Sander as a potential suspect. See Docket No. 58 at
1:10.
Oestreich noted a handwriting expert had
conducted an analysis and determined there was a tenpoint match between the sticky note Sander found on
his laptop and Sander’s handwriting from his previous
written statement. See Docket No. 58 at 1:13. Oestreich
also stated he was aware Sander had come into a
difficult situation at the school, he was being let go at
the end of the year, and he had been treated unfairly.
See Docket No. 58 at 1:15.
Approximately an hour and a half into the
interview, Sander stated “I need to get an attorney.”
See Docket No. 58 at 1:30. Oestreich confirmed it was
Sander’s right to do so, but “it never gets any easier.”
See Docket Nos. 58 at 1:30; 65-9, p. 26. Sander
continued to speak with Oestreich, however, and did
not further express a desire to speak to an attorney.
Eventually, Sander got up to leave, stating “I would
like to leave—I’m not under arrest–because we’re not
getting anywhere.” See Docket Nos. 58 at 1:43; 65-9,
p. 29. Oestreich and Sander kept talking for a short
1 All future citations to Docket No. 58 refer to Exhibit L unless
otherwise indicated.

App.51a
time, and then Sander attempted to walk out of the
interrogation room when Officer Kylan Klauzer entered
and asked Sander to go back into the room and
informed Sander he might not be free to leave. See
Docket No. 58 at 1:55. Sander was left alone in the
interrogation room for a few minutes before Oestreich
and Klauzer returned. See Docket No. 58 at 1:58.
Upon returning, Klauzer stated he had been
investigating the fire, and they had evidence that no
one had entered the school after Sander left. See
Docket No. 58 at 1:59. Sander again attempted to leave,
but Klauzer informed him he was not free to leave.
See Docket No. 58 at 2:12. Sander again later asked
if he was allowed to leave, and was told “no, not right
now.” See Docket No. 58 at 2:27. Eventually, Sander
asked about the consequences of talking. See Docket
No. 58 at 2:41. Klauzer stated that if Sander was
honest, Klauzer’s intention was to help Sander obtain
a plea deal with ideally no jail time. See Docket No.
58 at 2:41.
At one point in the interview, Sander asked if he
may be allowed to use the restroom while supervised.
See Docket No. 58 at 2:43. The officers did not directly
respond to his question.2 Although Klauzer stated he
could not make any promises, Oestreich repeatedly
noted the state’s attorneys would “listen” to them.
2 Sander reiterated his request to use the bathroom approximately
ten minutes later after he initially asked to do so. See Docket
No. 58 at 2:52. Klauzer responded saying he wanted to talk
about “this” first. Approximately half an hour after his initial
request, Sander again requested to use the restroom and was
allowed to do so. See Docket No. 58 at 3:25. In total, there was
an approximately 42-minute delay from Sander’s first request
to use the restroom.

App.52a

See Docket No. 58 at 2:45. Sander asked the officers

whether he will be able to consult an attorney afterwards, and both officers stated “absolutely.” Sander
then began to confess to starting the fire. A little over
the three hour mark, Klauzer left the room, and
Oestreich finished questioning Sander alone. See
Docket No. 58 at 3:10.

Sander was eventually left alone in the
interrogation room. See Docket No. 58 at 3:29. During
that time, Sander placed a call on his cell phone,
explaining he confessed to setting the fire because
the police told him they had so much evidence against
him; they were not going to allow him to leave that
day if he denied starting the fire; and he was hoping
to get a lesser sentence and no jail time. See Docket
No. 58 at 3:40. Sander was arrested that day and
charged with arson and endangerment by fire or
explosion. By 4:40 p.m. on March 4, a press release
from the Dickinson Police Department was issued,
noting that Sander had been taken into custody and
outlining the charges he faced.
After Sander was arrested on March 4, police
dispatch received an anonymous call from a male caller
who identified himself as “The Holy Ghost” at 1:51
a.m. on March 5, 2014. See Docket No. 55-6, p. 2. The
caller stated there was a note by the LEC’s door that
needed to be read. A note was found in the location
where the caller indicated. The note stated:
Thomas Sander is Innocent I broke into
Trinity through the back parking lot entrance
(broken door). I entered the vault with this
combination 4 left to # 80 3 right to # 45 2
left to # 30 Right to stay I Then lit a Titan
Sweatshirt on Fire and left it on a stack of

App.53a
papers. I stole all money in cash boxes
(proof is paper bag I left with this note) As I
left building I pulled Fire Alarm near Men’s
Locker room exit. Release Mr. Sander and I
will turn myself in. signed Ghost.

See Docket Nos. 53-11 and 55-6, p. 2.
Police received another anonymous call from the
West River Community Center on March 5, 2014; the
male caller stated he was the individual who started
the fire at Trinity. See Docket No. 55-6. Upon
investigating the phone calls, police officers identified
James Gordon, a Trinity student, as the likely caller.
Gordon was brought to the LEC for questioning, and
Oestreich interviewed him.
Initially, Gordon stated he did not write the note
left at the LEC, but received it from a stranger. See
Docket No. 53-10. However, when pressed for more
details, Gordon finally admitted that he wrote the
note, explaining he did so to help Sander because he
was grateful to Sander for helping with his sports
eligibility and giving him a job. After Gordon
acknowledged that he had, in fact, written the note,
Oestreich began to express his suspicion that Gordon
had started the fire. Eventually, Gordon admitted to
starting the fire at Trinity. At no time in the interview
did Gordon ever mention the blue sticky note, and he
also denied ever going into Sander’s office. Gordon
continued to vacillate throughout the interview, and
ultimately recanted his earlier confession, stating he
did not start the fire and was simply trying to help
Sander because he did not believe Sander had started
the fire. Gordon was subsequently charged with
hindering law enforcement.

App.54a
State criminal charges were eventually brought
against Sander for arson in violation of N.D.C.C.
§ 12.1-21-01 and endangering by fire or explosion in
violation of N.D.C.C. § 12.1-21-02. See State v. Sander,
No. 45-2014-CR-00366 (N.D. Dist. Ct. 2014). During
the course of that case, the state district court ruled
that portions of Sander’s interrogations were
inadmissible against Sander at trial. See Docket No.
37-1. Subsequently, the district court granted the
State’s motion to dismiss the charges against Sander
without prejudice.
On June 8, 2015, Sander commenced this suit
against the Defendants3 asserting nineteen separate
causes of action. See Docket No. 1. Sander’s complaint
asserts several federal civil rights claims under 42
U.S.C. § 1983 against the Defendants, relating to
alleged unconstitutional conduct in investigating,
interrogating, and arresting Sander. The complaint
also asserts several causes of action against the City
of Dickinson relating to its hiring, training, and
supervision of the named Defendants, and alleges
several other state law causes of action against all
the Defendants, ranging from intentional infliction of
emotional distress to defamation and deceit.
II.

Legal Analysis

Summary judgment is appropriate when the
evidence, viewed in a light most favorable to the nonmoving party, indicates no genuine issues of material
fact exist and the moving party is entitled to judgment
3 Defendant Oestreich, a former Dickinson Police Department
official, has since been elected Sheriff of Stark County, North
Dakota and has left the Dickinson Police Department.

App.55a
as a matter of law. Davison v. City of Minneapolis,
Minn., 490 F.3d 648, 654 (8th Cir. 2007); Fed. R. Civ.
P. 56(a). Summary judgment is not appropriate if there
are factual disputes that may affect the outcome of
the case under the applicable substantive law. Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). An
issue of material fact is genuine if the evidence would
allow a reasonable jury to return a verdict for the
non-moving party. Id.
The Court must inquire whether the evidence
presents sufficient disagreement to require the submission of the case to a jury or if it is so one-sided
that one party must prevail as a matter of law. Diesel
Mach., Inc. v. B.R. Lee Indus., Inc., 418 F.3d 820, 832
(8th Cir. 2005). The moving party bears the burden
of demonstrating an absence of a genuine issue of
material fact. Forrest v. Kraft Foods, Inc., 285 F.3d
688, 691 (8th Cir. 2002). The non-moving party may
not rely merely on allegations or denials; rather, it
must set out specific facts showing a genuine issue
for trial. Id.
Klauzer and Moser moved for summary judgment on all of Sander’s claims against them, arguing
they are entitled to qualified immunity and state law
immunity. See Docket No. 52. Qualified immunity is
an entitlement not to stand trial or face the other
burdens of litigation. Sheets v. Butera, 389 F.3d 772,
776 (8th Cir. 2004). “Qualified immunity shields
government officials from suit unless their conduct
violated a clearly established constitutional or statutory
right of which a reasonable person would have known.”
Littrell v. Franklin, 388 F.3d 578, 582 (8th Cir. 2004)
(citation omitted). The Supreme Court has construed
qualified immunity protection to shield “all but the

App.56a
plainly incompetent or those who knowingly violate the
law.” Id. For qualified immunity to apply, a two-part
inquiry is conducted:
(1) Whether the facts, viewed in the light most
favorable to the plaintiff, demonstrate the
deprivation of a constitutional or statutory
right; and
(2) Whether the right was clearly established
at the time of the deprivation.

Howard v. Kansas City Police Dep’t, 570 F.3d 984,
988 (8th Cir. 2009).

A. Sander’s Federal Law Claims Under 42 U.S.C.
§ 1983
In a 42 U.S.C. § 1983 case, an official is only
liable for his own misconduct and is not accountable
for the misdeeds of other agents under a theory such
as respondeat superior or supervisor liability. Whitson
v. Stone County Jail, 602 F.3d 920, 928 (8th Cir.
2010). Further, the doctrine of qualified immunity
also requires an individualized analysis as to each
officer because a person may be held personally liable
for a constitutional violation only if his own conduct
violated a clearly established constitutional right.
Manning v. Cotton, 862 F.3d 663, 668 (8th Cir. 2017).
Thus, Klauzer and Moser are only responsible or liable
for their own behavior, individually.
1. Probable Cause – Sander’s 17th Claim
for Relief
Underlying many of Sander’s federal and state law
claims is his assertion that he was detained on March
4, 2014, without probable cause. Klauzer and Moser

App.57a
argue they are entitled to summary judgment because
Sander relies on the assumption that his confession
during the March 4th interview was essential to finding
probable cause; however, Klauzer and Moser argue
there was sufficient probable cause to arrest Sander
prior to his confession. See Docket No. 52.
A warrantless arrest is consistent with the Fourth
Amendment if it is supported by probable cause, and
an officer is entitled to qualified immunity if there is
at least “arguable probable cause.” Borgman v. Kedley,
646 F.3d 518, 522-23 (8th Cir. 2011). An officer has
probable cause to make a warrantless arrest when the
totality of the circumstances at the time of the arrest
are sufficient to lead a reasonable person to believe
that the defendant has committed or is committing
an offense. Id. at 523. Arguable probable cause exists
even when an officer mistakenly arrests a suspect
believing it is based on probable cause if the mistake
is “objectively reasonable.” Id. An arresting officer’s
state of mind (except for the facts that he knows) is
irrelevant to the existence of probable cause. Devenpeck
v. Alford, 543 U.S. 146, 593 (2004). Although the
probable cause standard allows room for reasonable
mistakes by a reasonable person, the qualified
immunity standard protects “all but the plainly
incompetent or those who knowingly violate the law.”
Greenman v. Jessen, 787 F.3d 882, 888 (8th Cir. 2015).
In North Dakota, a person commits the offense
of arson if he starts a fire or causes an explosion with
intent to destroy a building. N.D.C.C. § 12.1-21-01.
In State v. Beciraj, the North Dakota Supreme Court
affirmed the conviction of a co-conspirator for conspiracy
to commit arson based on circumstantial evidence
establishing her motive and conduct linking her to

App.58a
the crime. 2003 ND 173, ¶¶ 11-12, 671 N.W.2d 250.
The Supreme Court determined there was sufficient
evidence to support the jury’s guilty verdict because
the co-conspirator and her husband had recently taken
out homeowners’ insurance; the home was unlocked
when firefighters arrived although no family members
were present; and the co-conspirator had been seen
carrying bags of clothing and other household items
away from the home on the day of the fire. See id.
Klauzer and Moser argue that, like in Beciraj,
there was ample circumstantial evidence that Sander
had committed arson when Klauzer detained him on
March 4th: (1) Sander was at the school, in the main
office where the vault is located, less than half an
hour before Storey heard the fire alarm; (2) Sander
stated the vault was closed when he returned to the
school to investigate the alarm, narrowing the window
for anyone else to have started the fire; (3) Sander
produced the sticky note, which strongly indicated
the fire was intentional, from his laptop after Officer
Hanson told him the police would be taking the
investigation seriously; (4) the fire originated in the
vault which few people, including Sander, had access
to and the combination for, and none of those
individuals were seen in the school the night of the
fire; and (5) Sander’s contract was not being renewed
at the end of the year, supporting a potential motive
for arson. See Docket No. 52.
Given all these facts, and the absence of viable
alternative suspects with comparable means, motive,
and opportunity, Klauzer and Moser argue there was
arguable probable cause to arrest Sander when Klauzer
detained him during the March 4th interview. See
Docket No. 52. Sander’s response argues that critical

App.59a
details in his confession were “inconsistent with what
was later learned about the fire.” See Docket No. 65,
p. 13. However, Sander’s argument is misplaced. As
Klauzer and Moser note, other facts that were
uncovered later in the investigation which might
diminish probable cause, such as a potential new
suspect and inconsistencies in witness statements, do
not undermine the analysis because the question
regarding probable cause involves what the officers
knew at the time on March 4th. The Court finds there
was arguable probable cause to arrest Sander when
Klauzer detained him during the interview on March
4, 2014.
2. Substantive Due Process Claims—
Sander’s 1st and 3rd Claims for Relief
Klauzer and Moser argue they are entitled to
summary judgment on Sander’s substantive due process
claim because they did not violate a fundamental right
of Sander’s and, even if they did, their conduct was
not conscience shocking.
Klauzer and Moser acknowledge Sander did not
receive adequate Miranda warnings before being subjected to a custodial interrogation. See Docket No. 52,
p. 19. However, they argue the Eighth Circuit Court
of Appeals has made it clear that defendants may not
be held liable under Section 1983 for those alleged
failures. The Eighth Circuit has stated “a litigant
cannot maintain an action under § 1983 based on a
violation of the Miranda safeguards.” Hannon v.
Sanner, 441 F.3d 635, 636 (8th Cir. 2006). Because the
reading of Miranda warnings is a procedural safeguard
rather than a right arising out of the Fifth Amendment,
the remedy for a Miranda violation is the exclusion

App.60a
from evidence of any compelled self-incrimination,
not a Section 1983 action. Id.; Warren v. City of
Lincoln, Neb., 864 F.2d 1436, 1442 (8th Cir. 1989).
Even assuming that Sander’s statements were
obtained in violation of Miranda, Section 1983 does
not provide a remedy for a violation of Miranda; thus,
Sander’s exclusive remedy would have been the
suppression of his statements, and he already received
that remedy in the state district court. See Hannon,
441 F.3d at 636.
Further, Klauzer and Moser argue Sander’s claims
under Section 1983 relating to his Fifth Amendment
right not to incriminate himself fails because Sander
did not proceed to a criminal trial. See Docket No. 52.
Statements compelled by police interrogations obviously
may not be used against a defendant at trial, but it is
not until their use in a criminal case that a violation
of the self-incrimination clause occurs. Winslow v.
Smith, 696 F.3d 716, 731 n. 4 (8th Cir. 2012); Chavez
v. Martinez, 538 U.S. 760, 767 (2003). In Winslow,
three suspects who pled guilty and one who pled no
contest to murder charges could not bring claims under
Section 1983 relating to their Fifth Amendment right
not to incriminate themselves because those statements
were never used at trial. 696 F.3d at 716, n. 4. Like
in Winslow, none of Sander’s statements were used
in a criminal trial. In fact, Sander’s confession was
suppressed by the state district court, and the criminal
charges against him were ultimately dismissed. A
failure to give Miranda warnings, even if police obtain
an unwarned confession, cannot alone support Section
1983 liability.
In order to establish a violation of substantive
due process rights, a plaintiff must show (1) that one

App.61a
or more of their fundamental constitutional rights
were violated, and (2) that the conduct was shocking
to the conscience. See Flowers v. City of Minneapolis,
Minn., 478 F.3d 869, 873 (8th Cir. 2007). Whether
conduct shocks the conscience is a question of law.
Folkerts v. City of Waverly, Iowa, 707 F.3d 975, 980
(8th Cir. 2013). The threshold question is whether
the behavior of the governmental officer is so egregious
and outrageous that it may fairly be said to shock the
contemporary conscience. Atkins v. Epperly, 588 F.3d
1178, 1183 (8th Cir. 2009). Conduct intended to injure
will generally rise to the conscience-shocking level,
but negligent conducts falls beneath the threshold of
constitutional due process. Id. The Eighth Circuit has
held that investigators shock the conscience when
they (1) attempt to coerce or threaten the criminal
defendant; (2) purposefully ignore evidence of the
defendant’s innocence; or (3) systematically pressure
to implicate the defendant despite contrary evidence.
Folkerts, 707 F.3d at 981. However, an officer’s
negligent failure to investigate inconsistencies or other
leads is insufficient to establish conscience-shocking
misconduct. Atkins, 588 F.3d at 1184.
“Fundamental to our system of justice is the
principle that a person’s rights are violated if police
coerce an involuntary confession from him, truthful
or otherwise, through physical or psychological methods
designed to overbear his will.” Wilson v. Lawrence
County, 260 F.3d 946, 952 (8th Cir. 2001). Whether
or not a confession is the involuntary product of coercion
is judged by the totality of the circumstances—
including an examination of both the conduct of the
officers and the characteristics of the accused. Id.
“[E]ven though the police use overreaching tactics

App.62a
such as the use of threats or violence, or the use of
direct or indirect promises, such promises or threats
will not render the confession involuntary unless it
overcomes the defendant’s free will and impairs his
capacity for self-determination.” Sheets, 389 F.3d at
778. Courts are to review the totality of the circumstances, considering “the degree of police coercion,
the length of the interrogation, its location, its continuity, and the defendant’s maturity, education,
physical condition, and mental condition.” Id. at 779.
However, it goes without saying that “the interrogation
of a suspect will involve some pressure.” Id.
It is clear Moser is entitled to summary judgment
on Sander’s substantive due process claims. Moser
did not participate in the March 4th interview with
Klauzer and Oestreich. Rather, his interaction with
Sander occurred on March 3rd, during a non-custodial
interview in which Sander was not considered a suspect
or detained, even briefly. In Section 1983 cases,
officials are only liable for his or her own misconduct
and are not accountable for the misdeeds of other
agents; thus, Moser is only responsible or liable for
his own behavior. See Whitson, 602 F.3d at 928.
Therefore, Moser is entitled to summary judgment on
Sander’s substantive due process claims.
Klauzer did not use violence or threats of violence
to extract a confession from Sander on March 4th.
Although Sander noted in his deposition that the
thought crossed his mind that Klauzer and Oestreich
might resort to physical violence during the March
4th interview, he acknowledged Klauzer did not touch
him nor did Klauzer make threatening statements
towards Sander during the interview. See Docket No.

App.63a
53-8, p. 79. Sander asserts the “defendants4 who are
each over 200 pounds” had Sander “pinned in the
corner” of the interrogation room. See Docket No. 65,
p. 31. The Court acknowledges that Klauzer and
Oestreich were seated close to Sander, and Sander
was essentially seated in the corner of the room during
the interrogation. However, the interview took place
in a standard Dickinson police interview room, and
Klauzer and Oestreich’s proximity to Sander was not
unduly coercive or threatening.
Sander asserts he was prevented from using the
restroom during the March 4th interview. Upon a
review of the video recording of the interview, there
was an approximately 42-minute delay after Sander
initially requested to use the restroom. While the
officers did indeed delay Sander’s access to the
restroom, the delay was not unreasonably lengthy and
does not alone shock the conscience. Other courts
have determined that similar delays do not shock the
conscience. See Dowell v. Lincoln County, 927 F. Supp.
2d 741, 752 (E.D. Mo. 2013) (thirty-four minute delay
in access to the restroom did not shock the conscience).
The statement to an accused that telling the truth
“would be better for him” does not constitute an implied
or express promise of leniency for the purpose of
rendering his confession involuntary. Simmons v.
Bowersox, 235 F.3d 1124, 1133 (8th Cir. 2001). Further,
officers may elicit statements by claiming not to
4 Throughout his response, Sander often references particular
individuals collectively as “Defendants.” However, as asserted
above, officials are only liable for his or her own misconduct and
are not accountable for the misdeeds of other agents. See
Whitson, 602 F.3d at 928.

App.64a
believe the accused’s denials. Id. Interrogation tactics
such as deception and raised voices also do not render a
confession involuntary unless the overall impact of
the interrogation caused the defendant’s will to be
overborne. Id. While Klauzer informed Sander that he
would do his best to encourage the State’s Attorney
to seek a sentence without a lengthy prison term,
Klauzer also noted he could not make any promises.
It goes without saying that the interrogation of a
suspect will involve some pressure as the very purpose is to elicit a confession. Sheets, 389 F.3d at 779.
However, in reviewing the totality of the circumstances, the Court finds that Klauzer’s statements
and actions during the March 4th interview do not
shock the conscience. Courts are to consider the degree
of police coercion, the length of the interrogation, its
location, its continuity, and the defendant’s maturity,
education, physical condition, and mental condition.
See id. The interrogation on March 4th took place in
a standard Dickinson police interview room around
11:00 a.m., and Sander arrived voluntarily at
Oestreich’s request. The interview only lasted
approximately three and a half hours, and the first
hour did not consist of probing or accusatorial
questioning. No violence or physical threats were
used. Further, Sander is an extremely well-educated
adult; he graduated from college and got his master’s
in education, and he was in the process of a graduate
program in theology at the time of the interview. See
Docket No. 65-9, pp. 4-5. In reviewing the totality of
the circumstances, the Court finds that the tactics
employed by Klauzer during the March 4th interview
do not rise to the level of malice or sadism resulting
in the inhumane abuse of power that literally shocks

App.65a
the conscience. See id.; Moran v. Clarke, 296 F.3d
638, 647 (8th Cir. 2002). Therefore, the Court finds
Klauzer is entitled to summary judgment on Sander’s
substantive due process claim against him.
Sander’s complaint also alleges Klauzer and Moser
recklessly failed to investigate other leads, namely
failing to investigate James Gordon as a viable suspect.
Klauzer and Moser argue they are entitled to qualified
immunity on this claim because there is no evidence
that they failed to follow any lead or otherwise violate
a clearly established right of Sander’s. The Eighth
Circuit recognized a substantive due process cause of
action for reckless investigation in Wilson v. Lawrence
County, Mo., 260 F.3d 946 (8th Cir. 2001), where the
Circuit identified the liberty interest at stake as the
interest in obtaining fair criminal proceedings. The
test for whether state officers’ actions violate this
protected liberty interest is whether those actions
shock the conscience. Amrine v. Brooks, 522 F.3d 823,
833 (8th Cir. 2008). Mere negligent failure to investigate
does not violate substantive due process, nor do
allegations of gross negligence give rise to a constitutional violation. Id.
Although Gordon confessed to starting the fire at
one point during his interview with Oestreich,
Klauzer and Moser argue inconsistencies in Gordon’s
statement excluded him as a suspect. Specifically,
Klauzer and Moser argue Gordon failed to tell Oestreich
in his interview about the sticky note on Sander’s
laptop which officers believed was a crucial piece of
evidence in the case; Gordon denied going into Sander’s
office when he asserted he started the fire; and there
was not a fire alarm in the location Gordon identified.
Further, Gordon’s story vacillated throughout the

App.66a
interview, until he ultimately stated that he wrote
the note and confessed to try and protect Sander. The
Eighth Circuit has noted that even if police officers
credit one individual’s statement over another, and
they are ultimately incorrect in their conclusions,
qualified immunity protects officers from such types
of “mistaken judgments.” Brockinton v. City of
Sherwood, Ark., 503 F.3d 667, 672 (8th Cir. 2007).
Further, Sander has not demonstrated that Klauzer
or Moser’s conduct during the investigation into the
Trinity fire “shocked the conscience.” Therefore, the
Court finds that Klauzer and Moser are entitled to
qualified immunity on this claim.
3. Failure to Preserve Exculpatory
Evidence—Sander’s 2nd and 12th claim
for Relief
Klauzer and Moser argue they are entitled to
summary judgment on Sander’s allegations that they
suppressed or failed to disclose exculpatory evidence.
See Docket No. 52, p. 33.
An investigating officer’s failure to preserve
evidence potentially useful to the accused or his
failure to disclose such evidence does not constitute a
denial of due process in the absence of bad faith.
White v. McKinley, 519 F.3d 806, 814 (8th Cir. 2008).
Consequently, to be viable, Sander’s claim must allege
bad faith to implicate a clearly established right under
Brady. Id. Even assuming that Klauzer and Moser
failed to disclose exculpatory evidence, the Court finds
there was no Brady violation because Sander was not
convicted. See Livers v. Schenck, 700 F.3d 340, 359
(8th Cir. 2012). In Livers, the Eighth Circuit determined
the investigating officers were entitled to qualified

App.67a
immunity on pretrial detainees’ Section 1983 claim
alleging the officers failed to disclose exculpatory
evidence in violation of their due process rights, since
a pretrial right to disclosure of such evidence, if it
existed at all, was not clearly established. 700 F.3d
at 359-60. Moreover, Klauzer and Moser argue that,
to the extent Sander seeks to assert a claim for
malicious prosecution under Section 1983, such a
claim is barred in the Eighth Circuit, and Klauzer
and Moser are therefore entitled to summary judgment.
See Kurtz v. City of Shrewsbury, 245 F.3d 753, 758
(8th Cir. 2001). The Court agrees.
4. Conspiracy to Violate Civil Rights –
Sander’s 5th Claim for Relief
Sander’s complaint asserts claims of conspiracy
to violate his civil rights against Klauzer and Moser.
See Docket No. 1, p. 11. To prove a 42 U.S.C. § 1983
conspiracy claim, Sander must show: (1) that the
defendant conspired with others to deprive him of
constitutional rights; (2) that at least one of the
alleged co-conspirators engaged in an overt act in
furtherance of the conspiracy; and (3) that the overt
act injured the plaintiff. White v. McKinley, 519 F.3d
806, 814 (8th Cir. 2008). Klauzer and Moser argue
that if the Court granted Klauzer and Moser qualified
immunity on the claims asserted above, it should also
grant summary judgment on Sander’s civil rights
conspiracy claims against them. The Court agrees.
Further, Klauzer and Moser argue there is no evidence
in the record to support a meeting of the minds as to
any intention to violate Sander’s civil rights. Even if
Sander argues there was some manner of agreement
between Oestreich and Klauzer not to give Sander the
complete Miranda warnings prior to the March 4th

App.68a
interview, Klauzer and Moser argue that claim would
fail nonetheless because the underlying claim, failure
to give Miranda warnings, is not independently
actionable under Section 1983. See Hannon, 441 F.3d
at 636. The Court agrees.
B. Sander’s State Law Claims
1. False Arrest, False Imprisonment,
Malicious Prosecution, and Abuse of
Process—Sander’s 6th, 7th, and 9th
Claims for Relief
Klauzer and Moser argue they are entitled to statelaw immunity on Sander’s state law claims for false
arrest, false imprisonment, malicious prosecution,
and abuse of process because the determination of
whether probable cause to arrest exists is a
discretionary function, subject to immunity under
N.D.C.C. ch. 32-12.1. See Docket No. 52, pp. 34-35.
Section 32-12.1-03(3)(c) of the North Dakota
Century Code sets forth the discretionary function
exception to liability of a political subdivision or political
subdivision employee. Section 32-12.1-03, N.D.C.C.,
states, in pertinent part: “A political subdivision or a
political subdivision employee may not be held liable
under this chapter for . . . [t]he decision to perform or
the refusal to exercise or perform a discretionary
function or duty, whether or not such discretion is
abused . . . ” The North Dakota Supreme Court has
interpreted this subsection to provide political subdivisions and their employees immunity from liability
for allegations of negligence in the exercise of a discretionary function. Copper v. City of Fargo, 905 F.
Supp. 680, 702 (D.N.D. 1994); see Sande v. City of

App.69a

Grand Forks, 269 N.W.2d 93, 98 (N.D. 1978); McLain
v. Midway Township, 326 N.W.2d 196, 199 (N.D. 1982).

Therefore, Klauzer and Moser are immune from
liability for Sander’s state law claims for false arrest
and false imprisonment, regardless of whether they
were negligent or whether they exercised due care,
provided that they can demonstrate that the decision
to detain arrest Sander was a discretionary function.
“There is a substantial amount of independent
judgment required to make a decision to arrest or to
conclude whether probable cause exists.” Copper, 905
F. Supp. at 702; see Richmond v. Haney, 480 N.W.2d
751, 759 (N.D. 1992). The Court finds that Klauzer
and Moser were exercising highly discretionary functions in the investigation and arrest of Sander,5 and
they are entitled to state-law immunity as a matter of
law, and therefore summary judgment on these claims.
Further, irrespective of the availability of state-law
immunity regarding these claims, the presence of
probable cause, as discussed above, establishes legal
authority to arrest and prosecute, making summary
judgment appropriate.
With respect to Sander’s state law malicious
prosecution claim, the Court finds that he has not
established a triable issue of fact on every essential
element of the claim. In order to maintain an action
for malicious prosecution, one must establish, at a
minimum, the following elements:
1.

Institution of a criminal proceeding by the
defendant against the plaintiff;

5 It is unclear whether Moser actually participated in the arrest of
Sander, as he was not present in the interrogation room during
the March 4 interview.

App.70a
2.

Termination of the proceeding in favor of
the accused;

3.

Absence of probable cause for the proceeding;
and

4.

Malice.

Kummer v. City of Fargo, 516 N.W.2d 294, 298 (N.D.
1994); Richmond, 480 N.W.2d at 755. Even assuming
that Sander could establish that either Klauzer or
Moser had instituted a criminal proceeding against
him and that it terminated in his favor, Sander must
still establish the absence of probable cause and
malice. Id. As the Court has already previously
addressed, probable cause was present when prosecution against Sander was initiated. Further, regarding
the element of malice, the North Dakota Supreme
Court has stated:
Overzealous police techniques which lead to
a successful defense do not, without more,
constitute malice or ulterior purpose sufficient
to support a tort claim. Absent some evidence
that the defendants were driven by some
motive other than to bring an offender to
justice, there can be no claim of abuse of
process or malicious prosecution.

Kummer, 516 N.W.2d at 298. It follows that even if

Klauzer and Moser’s actions could fairly be said to
constitute overzealous police work, Sander’s state
law claim for malicious prosecution against them
must fail because there is no evidence in the record
to support a jury finding of an ulterior motive beyond
Sander’s conclusory allegations.

App.71a
The Court finds Sander’s state law abuse of process
claims against Klauzer and Moser fail as a matter of
law for similar reasons. The tort of abuse of process
involves an individual who uses a legal process, whether
criminal or civil, against another primarily to
accomplish a purpose for which it was not designed.
Kummer, 516 N.W.2d at 297. The essential elements
of abuse of process include: (1) an ulterior purpose;
and (2) a willful act in the use of the process not
proper in the regular conduct of the proceeding. Id.
The North Dakota Supreme Court has noted that the
improper purpose usually “takes the form of coercion
to obtain a collateral advantage, not properly involved
in the proceeding itself.” Id. As noted above regarding
the malicious process claim, Sander has failed to
point to evidence in the record to support a finding of
Klauzer and Moser having an ulterior purpose or
motive, other than bringing an offender to justice or
that they used any legal process to gain a collateral
advantage over Sander. Accordingly, these state law
claims against Klauzer and Moser fail as a matter of
law, and they are entitled to summary judgment in
their favor.
2. Gross
Negligence
Misconduct—Sander’s
Claims for Relief

and
10th

Willful
& 13th

Sander’s complaint alleges claims of “gross
negligence” and “willful misconduct” against Klauzer
and Moser. See Docket No. 1, pp. 15-16, 18-19. Klauzer
and Moser argue discretionary immunity also applies
to these claims, noting that the plain language of
N.D.C.C. § 32-12.1-03(30 does not contain an exception
to immunity for discretionary acts, and decisions to
interrogate and arrest suspect are discretionary acts.

App.72a
The Court has already concluded that a reasonable
officer could have believed there was probable cause
to arrest Sander for arson, and that doing so was a
discretionary act. If a reasonable officer could have
believed that the arrest was lawful, their actions
cannot constitute gross negligence or willful misconduct.
The Court finds that Sander’s state law claims for
gross negligence and willful misconduct against Klauzer
and Moser fail as a matter of law, and summary
judgment is appropriate.
3. Deceit—Sander’s 14th Claim for Relief
Sander’s complaint alleges a claim of deceit against
Klauzer and Moser and outlines various alleged false
statements the officers6 made to Sander. See Docket
No. 1, p. 19. The statements Sander refers to in his
complaint were presumably made during the March 4
interview, which Moser was not present for.
“One who willfully deceives another with intent
to induce that person to alter that person’s position
to that person’s injury or risk is liable for any
damage which that person thereby suffers.” N.D.C.C.
§ 9-10-03. Deceit under N.D.C.C. § 9-10-02 applies
where there is no contract between the parties. Erickson
v. Brown, 2008 ND 57, ¶ 24, 747 N.W.2d 34. Deceit is
defined as:
1.

The suggestion as a fact of that which is not
true by one who does not believe it to be
true;

6 Again, Sander’s complaint does not distinguish which officer
made which alleged false statement. See Docket No. 1, p. 19.

App.73a
2.

The assertion as a fact of that which is not
true by one who has no reasonable ground
for believing it to be true;

3.

The suppression of a fact by one who is
bound to disclose it, or who gives information
of other facts which are likely to mislead for
want of communication of that fact; or

4.

A promise made without any intention of
performing.

N.D.C.C. § 9-10-02.
Klauzer and Moser argue there is no evidence in
the record to establish that any deception proximately
damaged Sander. Klauzer and Moser argue that the
causal connection between the alleged deception,
namely the misleading and lying about the evidence
in the case, and the ultimate harm which Sander
alleges, being prosecuted, is lacking because there
was probable cause to arrest Sander independent from
his confession. The Court agrees with Klauzer and
Moser. The Court finds that Sander has failed to
establish a causal connection between the alleged
deception and the harm he alleged he sustained. See
Grandbois and Grandbois, Inc. v. City of Watford City,
2004 ND 162, ¶ 24, 685 N.W.2d 129 (holding police
officers’ deception regarding misrepresentations on
employment applications for bartender positions was
insufficient to prove a causal connection between the
omission and the bar’s subsequent financial losses
following undercover officers’ multiple drug arrests).
Further, Sander failed to identify any authority for
holding law enforcement officers liable under that
tort for conduct during an official police interrogation.

App.74a
4. Intentional Infliction of Emotional
Distress—Sander’s 8th Claim for Relief
Klauzer and Moser assert they are entitled to
summary judgment on Sander’s claim for intentional
infliction of emotional distress against them because
their conduct was not extreme and outrageous as a
matter of law. The elements of a tort action for the
intentional infliction of emotional distress are extreme
and outrageous conduct that is intentional or reckless
and causes severe emotional distress. Kautzman v.
McDonald, 2001 ND 20, ¶ 18, 621 N.W.2d 871. Conduct
which qualifies as extreme and outrageous is limited
to conduct which exceeds “all possible bounds of
decency” and which “would arouse resentment against
the actor and lead to an exclamation of ‘Outrageous’
by an average member of the community.” Id. The court
must initially decide whether the alleged conduct may
reasonably be regarded as “extreme and outrageous.”
Id.
Sander’s complaint argues the Defendants engaged
in extreme and outrageous conduct by “bullying,
coercing, and intimidating” Sander into making a “false
confession” and persisting in prosecuting Sander “when
another individual had admitted to starting the fire.”
See Docket No. 1, p. 13. Again, Sander’s complaint
refers to the “Defendant Police Officers” collectively,
and does not state which particular officer engaged in
certain conduct. See Docket No. 1, p. 13-14. However,
many of Sander’s allegations of extreme and outrageous
conduct appear to relate to the March 4th interview.
The officers had legitimate law enforcement objectives
in interviewing Sander as they were attempting to
determine the identity of a possible arsonist of a local
high school. The Court finds that an average member

App.75a
of the community would not exclaim “Outrageous!” upon
learning of the officers’ actions in this case. As
discussed above with respect to the constitutionality
of the March 4th interview, the interview did not
deviate from practices and tactics commonly employed
in police interrogations. Further, as discussed above,
the officers did not violate Sander’s constitutional
rights by failing to investigate another potential
suspect. The Court finds as a matter of law that the
conduct at issue cannot be said to exceed “all possible
bounds of decency” or rise to the level of “extreme
and outrageous conduct” as required under North
Dakota law. Kautzman, 2001 ND 20, ¶ 18. Therefore,
summary judgment on Sander’s claims of intentional
infliction of emotional distress against Klauzer and
Moser is appropriate.
5. Defamation—Sander’s 18th Claim for
Relief
Sander brought a claim of defamation against
Klauzer and Moser, asserting “Defendant Officers and
Detectives made false and unprivileged statements
indicating that Tom Sander was guilty of starting the
Trinity Fire and that he would be convicted and
punished for that crime.” See Docket No. 1, p. 24. It
is unclear which alleged statements, made by either
Klauzer or Moser, Sander believes are actionable.
Again, Sander’s complaint does not distinguish which
specific defendant made such statements, rather he
refers to them collectively as “Defendant Police Officers”
or “Detectives.” See Docket No. 1, p. 24.
To be defamatory, a statement must be false and
unprivileged. See N.D.C.C. § 14-02-03; N.D.C.C. § 1402-04; Mr. G’s Turtle Mountain Lodge, Inc. v. Roland

App.76a

Tp., 2002 ND 140, ¶ 33, 651 N.W.2d 625. Klauzer and

Moser argue that any statement allegedly made
regarding Sander being charged in connection with
the Trinity fire could not support liability because it
was not false, as Sander was, in fact, charged. The
Court agrees.

In support of his argument, Sander’s response
points to a media release that was issued informing
the public that Sander made voluntary statements
during the March 4th interview implicating him in
the fire. Sander argues this is “false” because Sander
“consistently maintained his innocence” until the
Defendants “unlawfully detained,” “cornered,” “bullied,”
“lied,” and “cut-off his denials.” See Docket No. 65, p.
46. However, any alleged misconduct which Sander
alleges was committed by the officers during the March
4th interview does not change the media release’s
statements into false statements. The Court finds
that Klauzer and Moser are entitled to summary
judgment as a matter of law on Sander’s defamation
claims against them.
6. North Dakota Constitutional Claim—
Sander’s 11th Claim for Relief
Sander asserts a claim for relief under Article 1,
Section 1 of the North Dakota State Constitution.
See Docket No. 1, p. 16. Article 1, Section 1 of the
North Dakota Constitution states:
All individuals are by nature equally free
and independent and have certain inalienable
rights, among which are those of enjoying
and defending life and liberty; acquiring,
possessing and protecting property and
reputation; pursuing and obtaining safety

App.77a
and happiness; and to keep and bear arms
for the defense of their person, family,
property, and the state, and for lawful
hunting, recreational, and other lawful purposes, which shall not be infringed.
Klauzer and Moser assert they are entitled to
summary judgment on this claim because the North
Dakota Supreme Court has never inferred a private
right of action under the state constitution. See
Docket No. 52, p. 40. Sander has failed to point to
any case law to support his claim for a private right
of action under the state constitution, and this Court
will not take the extraordinary step of inferring one.
The Court finds Klauzer and Moser are entitled to
summary judgment as a matter of law on Sander’s
claim against them under Article 1, Section 1 of the
North Dakota Constitution.
III. Conclusion
After carefully reviewing the entire record and
for the reasons set forth above, the Court GRANTS
Defendants’ Klauzer and Moser’s “Motion for Summary
Judgment” (Docket No. 51).
IT IS SO ORDERED.
Dated this 5th day of February, 2018.
/s/ Daniel L. Hovland
Chief Judge
United States District Court

App.78a
APPENDIX F
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT DENYING
PETITION FOR REHEARING
(AUGUST 23, 2019)
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________
THOMAS SANDER,

Appellant,
v.
CITY OF DICKINSON, NORTH DAKOTA, ET AL.,

Appellees.

________________________
No. 18-1560

Appeal from United States District Court
for the District of North Dakota-Bismarck
(1:15-cv-00072-DLH)
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Erickson did not participate in the consideration or decision of this matter.

App.79a
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/
Michael E. Gans
August 23, 2019

App.80a
APPENDIX G
REPORT OF DR. RICHARD A. LEO, PH.D, J.D.
(JULY 12, 2016)
Dr. Richard A. Leo, Ph.D., J.D.
JUSTICE RESEARCH & CONSULTING, INC.
15 Ashbury Terrace
San Francisco, CA 94117
____________
(415) 661-0162 (Phone)
(415) 422-6433 (FAX)
Email: rleo@usfca.edu
July 12, 2016
Ryan Shaffer Esq.
Rob Stepans, Esq.
Meyer, Shaffer & Stepans, PLLP
3490 Clubhouse Drive, Suite 104
Wilson, WY 83014
Re: Thomas Sander v. The City of Dickinson et al.
Case No. 1:15-CV-72
United States District Court, District of North
Dakota, Northwestern Division
Dear Mr. Shaffer,
This report is per your request in the abovereferenced case of Thomas Sander v. The City of
Dickinson et al.
I.

Qualifications

I am the Hamill Family Professor of Law and
Psychology at the University of San Francisco, and
formerly an Associate Professor of Psychology and an

App.81a
Associate Professor of Criminology at the University
of California, Irvine. My areas of research, training,
and specialization include social psychology, criminology, sociology, and law. For more than two decades,
I have conducted extensive empirical research on
police interrogation practices, the psychology of interrogation and confessions, psychological coercion, policeinduced false confessions, and erroneous convictions.
In 1992 and 1993, I spent nine months doing field
research inside the Oakland Police Department, which
included sitting in on and contemporaneously observing
one-hundred twenty-two (122) felony interrogations;
in 1993, I also observed sixty (60) fully videotaped
interrogations in the Vallejo and Hayward Police
Departments in northern California. Since then, I
have analyzed thousands of cases involving interrogations and confessions; I have researched, written,
and published numerous peer-reviewed articles on
these subjects in scientific and legal journals; and I
have written several books on these subjects, including
Police Interrogation and American Justice (Harvard
University Press, 2008) and Confessions of Guilt:
From Torture to Miranda and Beyond (Oxford University Press, 2012).
I am regarded as a national and leading expert
on these topics, and I have won numerous individual
and career achievement awards for my scholarship
and publications. My scholarship has often been
featured in the news media and cited by appellate
courts, including the United States Supreme Court
on multiple occasions. To date, I have consulted with
criminal and civil attorneys on more than eighteenhundred (1,800) cases involving disputed interrogations and/or confessions, and I have been qualified
and testified as an expert witness three-hundred and

App.82a
nineteen (319) times in state, federal, and military
courts in thirty-three (34) states plus the District of
Columbia, including fourteen times in federal courts
and seven times in military courts. I have given many
lectures to judges, defense attorneys, prosecutors,
and other criminal justice professionals, and I have
taught interrogation training courses and/or given
lectures to police departments in the United States,
China, and the Republic of Cyprus.
My qualifications are summarized in greater detail
in my curriculum vitae, which is attached to this
report. A list of my court and deposition testimony in
the last four years is attached to this report. I am
being compensated for my time at the rate of $350
per hour. My compensation is not contingent on the
outcome of this litigation nor on the opinions I express in this report or in subsequent court testimony.
II.

Materials Reviewed

In conjunction with my preparation of this report,
I have reviewed the following materials:
● Complaint and Jury Demand (Filed 6/08/15)
● Answer and Jury Demand (July 27, 2015)
● Terry Oestreich’s Answer and Jury Demand
(August 17, 2015)
● DVD of March 3, 2014 Interrogation of Thomas
Sander
● Transcript of March 3. 2014 Interrogation of
Thomas Sander
● DVD of March 4, 2014 Interrogation of Thomas
Sander
● Transcript of March 4, 2014 Interrogation of
Thomas Sander

App.83a
● DVD of March 5, 2014 Interrogation of Thomas
Sander
● Transcript of March 5, 2014 Interrogation of
Thomas Sander
● DVD of March 5, 2014 of Monsignor Patrick
Schumacher (March 13, 2014)
● Transcript of March 5, 2014 Interview of
Monsignor Patrick Schumacher
● DVD of March 5, 2014 Interview of Richard
Gordon
● Transcript of March 5, 2014 Interview of
Richard Gordon
● DVD of March 6, 2014 Interrogation of James
Gordon
● Transcript of March 6, 2014 Interrogation of
James Gordon
● Transcript of Deposition of Terry Oestreich
(June 6, 2014)
● Transcript of Deposition of James Gordon
(June 6, 2014)
● Transcript of Deposition of Monsignor Patrick
Schumacher (June 6, 2014)
● Motion to Suppress and Brief in Support of
Motion to Suppress (May 8, 2014)
● Plaintiff’s Brief In Response to Defendant’s
Motion to Suppress Evidence (June 6, 2014)
● Transcript of Motion to Suppress Hearing
(July 1, 2014)
● Police and Fire Department Records Relating
to Trinity High School Fire on March 3, 2014
(PL000001 to PL000134)
● Transcript of James Gordon’s First Call to The
Dickinson Police Department (March 5, 2014)

App.84a
● Note Written By James Gordon (PL000109)
● Personnel File of Detective Kylan Klauzer
● Defendant City of Dickinson’s 3rd Amended
Answers to Plaintiff’s First Set of Interrogatories, Requests for Production of Documents,
and Request for Admission to Defendant City
of Dickinson, North Dakota plus attached documents (Pp. 103-145)
● Transcript of Deposition of Thomas Sander
(April 5, 2016)
● Transcript of Deposition of Kylan Klauzer
(June 1, 2016)
● Transcript of Deposition of Jeremy Moser
(June 2, 2016)
● Transcript of Deposition of Terry Oestreich
(June 3, 2016)
● Transcript of Deposition of Richard Holgard
(June 5, 2014)
● Report of Dr. Troy W. Ertelt
(Dated June 20, 2014)
● ATF Origin and Cause Report and Related
Discovery (PL002574-PL0027511)
● Dennis Rohr Handwriting Examination Report
(March 3, 2014)
● Dennis Rohr Handwriting Examination Report
#2 (March 5, 2014)
III. Overview
In this report, I will first provide an overview of
the relevant social science research on the psychology
of police interrogation practices and techniques, policeinduced false confessions, risk factors for false confession, psychological coercion, police interrogation con-

App.85a
tamination, and indicia of unreliability. I will then
discuss these issues as they relate to the investigation,
interrogations and confession statement of Thomas
Sander.
More specifically, in my professional opinion:
1) It has been well-documented in the empirical
social science research literature that hundreds of
innocent suspects have confessed during police interrogation to crimes (often very serious crimes such as
murder and rape) that it was later objectively proven
they did not commit;
2) It has been well-documented in the empirical
social science research literature that the primary,
sequential causes of false confession are: 1) incompetent, reckless, overzealous and/or dishonest police
investigation leading to a premature and erroneous
misclassification of an innocent person as a guilty
suspect; 2) subjecting that factually innocent but misclassified person to a guilt-presumptive, accusatory
and psychologically deceptive, manipulative and/or
coercive interrogation; and 3) feeding (i.e., “contaminating”) that suspect (with) non-public case facts that
he or she is pressured and/or persuaded to incorporate
into a fabricated false confession;
3) The confession statements of Thomas Sander
are almost certainly, if not certainly, false: they contain
numerous factual and logical errors, inconsistencies,
omissions and other indicia of unreliability that are
the hallmarks of false and unreliable confessions;
4) The confession statements of James Gordon
bear the indicia of reliability that are the hallmarks
of a true confession: James Gordon’s confession statement provided police with non-public facts, that were

App.86a
not likely guessed by chance and not known to the
police, and led to new and missing evidence that also
corroborated the accuracy of his confession statements;
5) The multiple custodial interrogations of Thomas
Sander were guilt-presumptive, accusatory and theorydriven. These interrogations were not structured to
find the truth but, instead, to intentionally incriminate
Thomas Sander by coercively and unlawfully breaking
down his denials of guilt and eliciting a statement of
guilt from him that was consistent with the investigators’ pre-existing assumptions, beliefs and speculations;
6) Before interrogating him, the investigators
misclassified Thomas Sander as guilty when, in fact,
they had no evidence whatsoever indicating that
Thomas Sander either knew about, or set, the fire at
Trinity High School on March 3, 2014;
7) The multiple custodial interrogations of Thomas
Sander were intentionally psychologically coercive:
the investigators intentionally violated Mr. Sander’s
due constitutional Miranda and due process rights
and intentionally used numerous interrogation techniques that are known to cause a suspect to perceive
that he or she has no choice but to comply with their
demands and/or requests and that are known to
increase the risk of eliciting involuntary statements,
admissions and/or confessions;
8) The multiple custodial interrogations of Thomas Sander contained numerous interrogation techniques, methods and strategies that have been shown
by social science research to increase the risks of
eliciting false and unreliable statements, admissions
and/or confessions (i.e., situational risk factors) when

App.87a
misapplied to the innocent. These included sleep
deprivation, lengthy interrogation, false evidence ploys,
minimization, maximization, and implied and explicit promises and threats;
9) The multiple custodial interrogations of
Thomas Sander involved numerous and documented
instances of police interrogation contamination (i.e.,
leaking and disclosing non-public case facts) that
contravene universally accepted police interrogation
training standards and best practices, and which
increased the risk that Thomas Sander’s coerced confession statement would, misleadingly, appear to be
detailed and self-corroborating; and
10) Detective Oestreich’s and Detective Klauzer’s
repeatedly and intentionally violated national police
interrogation training, standards and practices in
their interrogations of Thomas Sander, thereby substantially increasing the risk that they would elicit
both involuntary and unreliable statements, admissions and/confessions from him.
IV. The Scientific Study of Police Interrogation and
False Confessions
There is a well-established empirical field of research in the academic disciplines of psychology,
criminology, and sociology on the subjects of police
interrogation practices, psychological coercion, and
false confessions. This research dates back to 1908;
has been the subject of extensive publication (hundreds
of academic journal articles, stand-alone books, and
book chapters in edited volumes); has been subjected
to peer review and testing; is based on recognized
scientific principles, methods, and findings; and is
generally accepted in the social scientific community.

App.88a
Significantly, numerous courts have held repeatedly
that these principles, methods, and findings are generally accepted in the social science community and
therefore accepted expert testimony in criminal and
civil rights litigation.
This research has analyzed numerous policeinduced false confessions and identified the personal
and situational factors associated with, and believed
to cause, false confessions.1 The fact that policeinduced false confessions can and do occur has been
well-documented and is not disputed by anyone in
the law enforcement or academic community. Indeed,
leading police interrogation training manuals have,
at least since 2001, contained entire chapters and
sections on the problem of police-induced false confessions and what investigators need to know to
better understand and avoid eliciting false confessions from innocent suspects.2 Social scientists have
documented approximately four-hundred and fifty to
five-hundred proven false confessions in America

1 See Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson, Richard A. Leo and Allison Redlich (2010). “Police-Induced
Confessions: Risk Factors and Recommendations” in Law and
Human Behavior, 34, 3-38; Richard A. Leo (2008), POLICE
INTERROGATION AND AMERICAN JUSTICE (Harvard University Press); and Gisli Gudjonsson (2003), THE PSYCHOLOGY
OF INTERROGATIONS AND CONFESSIONS: A HANDBOOK
(John Wiley & Sons Inc).
2 See, for example, See Fred Inbau, John Reid, Joseph Buckley
and Brian Jayne (2001). CRIMINAL INTERROGATION AND
CONFESSIONS, 4th Edition (Aspen Publishers, Inc.) at 411-448;
and David Zulawski and Douglas Wicklander (2002). PRACTICAL
ASPECTS OF INTERVIEWING AND INTERROGATION, 2nd
Edition (CRC Press) at 73-104.

App.89a
since the early 1970s,3 but this is surely an underestimate and thus the tip of a much larger iceberg for
several reasons. First, false confessions are difficult
for researchers to discover because neither the state
nor any organization keeps records of the interrogations producing them. Second, even when they are
discovered, false confessions are notoriously hard to
establish because of the factual and logical difficulties
of proving the confessor’s absolute innocence. As a
result, Richard Ofshe and I coined the term “proven
false confession” in 1998,4 showing that there are only
four ways in which a disputed confession can be classified as proven beyond any doubt to be false:
1) when it can be objectively established that the
suspect confessed to a crime that did not happen;
2) when it can be objectively established that it
would have been physically impossible for the confessor to have committed the crime;

3 The largest published study of proven false confessions to date
is Steven Drizin and Richard A. Leo (2004). “The Problem of
False Confessions in the Post-DNA World. North Carolina Law
Review, 82, 891-1007. For a review of the literature documenting
proven false confessions, see Richard A. Leo (2008), POLICE
INTERROGATION AND AMERICAN JUSTICE. At that time,
there were approximately two-hundred and fifty to threehundred proven false confessions in the documented literature.
Since 2004, Steve Drizin, Gillian Emmerich and I have collected
an additional two-hundred proven false confessions that are the
subject of an academic article we are currently drafting but
have not yet submitted for publication.
4 Richard A. Leo and Richard Ofshe (1998). “The Consequences
of False Confessions: Deprivations of Liberty and Miscarriages of
Justice in the Age of Psychological Interrogation.” The Journal
of Criminal Law and Criminology. Vol. 88, No. 2. Pp. 429-496.

App.90a
3) when the true perpetrator is identified and
his guilt is objectively established; and/or
4) when scientific evidence dispositively establishes the confessor’s innocence.
However, only a small number of cases involving
a disputed confession will ever come with independent
case evidence that allows the suspect to prove his
innocence beyond dispute because doing so is akin to
proving the negative. The documented number of
proven false confessions in the scientific research
literature is, therefore, a dramatic undercount of the
actual false confessions that police have elicited in
the United States in recent decades. There have almost
certainly been thousands (if not tens or hundreds of
thousands) more police-induced false confessions than
researchers have been able to discover and classify as
proven false. Indeed, in a survey of police that my
colleagues and I published in 2007, police investigators themselves estimated that they elicited false
confessions in 4.78% of their interrogations.5
The subject of police interrogation and false confessions is beyond common knowledge and highly counterintuitive.6 Police detectives receive specialized training
5 Saul Kassin, Richard Leo, Christian Meissner, Kimberly Richman, Lori Colwell, Amy-May Leach, and Dana La Fon (2007).
“Police Interviewing and Interrogation: A Self-Report Survey of
Police Practices and Beliefs,” Law and Human Behavior, 31, 381400.
6 See Danielle Chojnacki, Michael Cicchini and Lawrence White
(2008), “An Empirical Basis for the Admission of Expert Testimony on False Confessions,” Arizona State Law Journal, 40, 1-45;
Richard A. Leo and Brittany Liu (2009). “What Do Potential Jurors
Know About Police Interrogation and False Confessions?” Behavioral Sciences and the Law, 27, 381-399; Linda Henkel, Kim-

App.91a
in psychological interrogation techniques; most people
do not know what these techniques are or how the
techniques are designed to work (i.e., move a suspect
from denial to admission). In addition, most people
also do not know what psychological coercion is,
why some techniques are regarded as psychologically
coercive, and what their likely effects are. Moreover,
most people do not know which interrogation techniques
create a risk of eliciting false confessions or how and
why the psychological process of police interrogation
can, and sometimes does, lead suspects to falsely
confess. This unfamiliarity causes most people to
assume that virtually all confessions are true.
V.

The Social Psychology of Police Interrogation7

Police interrogation is a cumulative, structured,
and time-sequenced process in which detectives draw
on an arsenal of psychological techniques in order to
overcome a suspect’s denials and elicit incriminating
statements, admissions, and/or confessions. This is
the sole purpose of custodial interrogation. To achieve
berly Coffman, and Elizabeth Dailey (2008). “A Survey of
People’s Attitudes and Beliefs About False Confessions,” Behavioral Sciences and the Law, 26, 555-584; Iris Blandon-Gitlin,
Kathryn Sperry, and Richard A. Leo (2011) “Jurors Believe Interrogation Tactics Are Not Likely to Elicit False Confessions: Will
Expert Witness Testimony Inform Them Otherwise?” in Psychology, Crime and Law, 17, 239-260; and Mark Costanzo, Netta
Shaked-Schroer and Katherine Vinson (2010), “Juror Beliefs
About Police Interrogation, False Confession and Expert
Testimony” in The Journal of Legal Empirical Studies, 7, 231247.
7 See Richard A. Leo (2009). “False Confessions: Causes, Consequences and Implications.” Journal of the American Academy of
Psychiatry and Law, 37, 332-343.

App.92a
this purpose, interrogators use techniques that seek
to influence, persuade, manipulate, and deceive suspects into believing that their situation is hopeless
and that their best interest lies in confessing.8 Sometimes, however, interrogators cross the line and employ
techniques and methods of interrogation that are coercive and increase the likelihood of eliciting unreliable
confessions or statements.
Contemporary American interrogation methods
are structured to persuade a rational guilty person
who knows he is guilty to rethink his initial decision
to deny culpability and choose instead to confess.
Police interrogators know that it is not in any
suspect’s rational self-interest to confess. They expect to
encounter resistance and denials to their allegations,
and they know that they must apply a certain amount
of interpersonal pressure and persuasion to convince
a reluctant suspect to confess. As a result, interrogators have, over the years, developed a set of subtle and
sophisticated interrogation techniques whose purpose
is to alter a guilty suspect’s perceptions so that he will
see the act of confessing as being in his self-interest.
These interrogation techniques were developed
for the purpose of inducing guilty individuals to confess to their crimes, and police are admonished in
their training to use them only on suspects believed
to be guilty.9 When these same techniques are used
8 Deborah Davis and William O’Donohue (2004). “The road to
perdition: Extreme influence tactics in the interrogation room,”
In William O’Donohue, ED (2004), Handbook of Forensic Psychology (San Diego: Academic Press). Pp. 897-996.
9 See Fred Inbau, John Reid, Joseph Buckley and Brian Jayne
(2013). CRIMINAL INTERROGATION AND CONFESSIONS,
5th Edition (Burlington, MA: Jones & Bartlett Learning) at 187

App.93a
on innocent suspects, they carry the risk that they
will elicit false statements, admissions and/or confessions.
The goal of an interrogator is to persuade a
suspect to view his immediate situation differently
by focusing the suspect’s attention on a limited set of
choices and alternatives, and by convincing him of
the likely consequences that attach to each of these
choices. The process often unfolds in two steps: first,
the interrogator causes the suspect to view his situation as hopeless; and, second, the interrogator persuades the suspect that only by confessing will the
suspect be able to improve his otherwise hopeless situation. The interrogator makes it clear what information he is seeking and attempts to convince the
suspect that his only rational option is to confirm the
information the interrogator purports to already
know.
The first step or stage of an interrogation consists of causing a suspect to view his situation as
hopeless. If the interrogator is successful at this
stage, he will undermine the suspect’s self-confidence
and cause the suspect to reason that there is no way
to escape the interrogation without incriminating
himself. To accomplish this, interrogators accuse the
suspect of having committed the crime; they attack
and try to undermine a suspect’s assertion of an
alibi, alternate sequence of events, or verbalization of
innocence (pointing out or inventing logical and
(“These nine steps are presented in the context of the interrogation
of suspects whose guilt seems definite or reasonably certain”).
For empirical support for this observation, see Richard A. Leo
(2008). POLICE INTERROGATION AND AMERICAN JUSTICE
(Harvard University Press).

App.94a
factual inconsistencies, implausibilities, and/or impossibilities); they exude unwavering confidence in their
assertions of the suspect’s and his accomplices’ guilt;
they refuse to accept the possibility of the suspect’s
denials; and, most importantly, they confront the
suspect with incontrovertible evidence of his guilt,
whether real or non-existent. Because interrogation
is a cumulative and time-sequenced process, interrogators often draw on these techniques repeatedly
and/or in succession, building on their earlier accusations, challenges and representations at each step in
the interrogation process.
Through the use of these techniques, the interrogator communicates to the suspect that he has been
caught, that there is no way he will escape the interrogation without incriminating himself and other
suspects, and that his future is determined—that
regardless of the suspect’s denials or protestations of
innocence, he is going to be arrested, prosecuted, convicted, and punished. The interrogator seeks to convince the suspect that this is a fact that has been
established beyond any doubt, and thus that any
objective person must necessarily reason to this conclusion. By persuading the suspect that he has been
caught, that the existing evidence or case facts objectively prove his guilt, and that it is only a matter of
time before he will be prosecuted and convicted, the
interrogator seeks to alter the suspect’s perceptions,
such that he comes to view his situation as hopeless
and to perceive that resisting the interrogator’s
demands is futile.
Once the interrogator has caused the suspect to
understand that he has been caught and that there is
no way out of this predicament, the interrogator

App.95a
seeks to convince the suspect that the only way to
improve his otherwise hopeless situation is by confessing to the offense(s) of which he is accused and
confirming the information the interrogator is seeking to extract from the suspect. The second step of
the interrogation thus consists of offering the suspect
inducements to confess—reasons or scenarios that
suggest the suspect will receive some personal, moral,
communal, procedural, material, legal or other benefit if he confesses to the interrogator’s version of the
offense. One goal of these scenarios or inducements is
to downplay both the seriousness of the alleged crime
as well as the consequences of confessing, leading the
suspect to perceive that the consequences of continuing to deny the accusations will be worse than
the consequences of admitting to participation in the
crime. The interrogator’s attempt to diminish the
suspect’s perception of the consequences of confessing
is combined with techniques that are designed to
increase the suspect’s anxiety in order to create the
perceived need for release from the stress of prolonged
interrogation.10 Investigators also use scenarios to
plant ideas or suggestions about how or why the
suspect may have committed the crime which they
may later pressure the suspect to accept and repeat.
Researchers have classified the types of inducements investigators use during the second step of
10 See Brian Jayne (1986). “The Psychological Principles of Criminal Interrogation,” in Fred Inbau, John Reid and Joseph
Buckley (1986). CRIMINAL INTERROGATION AND CONFESSIONS, Third Edition (Baltimore, MD: Williams & Wilkins) at
332. (“The goal of interrogation is therefore to decrease the
suspect’s perception of the consequences of confessing, while at
the same time increasing the suspect’s internal anxiety associated with his deception.”).

App.96a
interrogation into three categories: low-end inducements, systemic inducements, and high-end inducements.

Low-end inducements refer to interpersonal or
moral appeals the interrogator uses to convince a
suspect that he will feel better if he confesses. For example, an interrogator may tell a suspect that the
truth will set him free if he confesses, that confessing
will relieve his anxiety or guilt, that confessing is the
moral or Christian thing to do, or that confessing will
improve his standing in the eyes of the victim or the
eyes of the community.
Systemic inducements refer to appeals that the
interrogator uses to focus the suspect’s attention on
the processes and outcomes of the criminal justice
system in order to get the suspect to come to the conclusion that his case is likely to be processed more
favorably by all actors in the criminal justice system
if he confesses. For example, an interrogator may tell
a suspect that he is the suspect’s ally and will try to
help him out—both in his discussions with the prosecutor as well as in his role as a professional witness
at trial—but can only do so if the suspect first admits
his guilt. Or the interrogator may ask the suspect
how he expects the prosecutor to look favorably on the
suspect’s case if the suspect does not cooperate with
authorities. Or the interrogator may ask the suspect
what a judge and jury are really going to think, and
how they are likely to react, if he does not demonstrate
remorse and admit his guilt to authorities. Interrogators often couple the use of systemic incentives with
the assertion that this is the suspect’s one and only
chance—now or never—to tell his side of the story; if
he passes up this opportunity, all the relevant actors

App.97a
in the system (police, prosecutor, judge and jury) will
no longer be open to the possibility of viewing his actions in their most favorable light. This tactic may
incentivize a suspect to either falsely confess or confirm an incorrect story for the interrogator based on
the belief that the suspect will not have the same
opportunity to help himself again in the future.
Interrogators rely on systemic inducements to persuade the suspect to reason to the conclusion that the
justice system naturally confers rewards for those
who admit guilt, demonstrate remorse, and cooperate
with authorities, whereas it inevitably metes out
punishment for those who do not.
Finally, high-end inducements refer to appeals
that directly communicate the message that the suspect
will receive less punishment, a lower prison sentence
and/or some form of police, prosecutorial, judicial or
juror leniency if he complies with the interrogator’s
demand that he confess, but that the suspect will
receive a higher sentence or greater punishment if he
does not comply with the interrogator’s demand that he
confess. High-end inducements may either be implicit
or explicit: the important question is whether the
interrogation technique communicates the message,
or is understood to communicate the message, that the
suspect will receive a lower criminal charge and/or
lesser punishment if he confesses as opposed to a
higher criminal charge and/or greater amount of
punishment if he does not.
Explicit high-end incentives can include telling a
suspect that there are several degrees of the alleged
offense, each of which carry different amounts of punishment, and asking the suspect which version he
would like to confess to. Or the interrogator may ex-

App.98a
plicitly tell the suspect that he will receive a long
prison sentence—or perhaps even the death penalty—if he does not confess to the interrogator’s version of events. The interrogator may also point out
what happens to men of the suspect’s age, or men
accused of crime, in prison if the suspect does not
confess to the interrogator’s minimized account. Sometimes interrogators who rely on high-end inducements
will present the suspect with a simple two-choice situation (good vs. bad): if the suspect agrees to the good
choice (a minimized version of the offense, such as involuntary manslaughter or self-defense, or the implication of another person), he will receive a lower
amount of punishment or no punishment at all; but if
he does not confess right then, criminal justice officials
will impute to him the bad choice (a maximized version of the offense, such as pre-meditated first degree
murder, or that the suspect was acting alone), and he
will receive a higher level of punishment, or perhaps
the harshest possible punishment.11 The purpose of
high-end inducements is to communicate to a suspect
that it is in his rational self-interest to confess to the
minimized or less-incriminating version of events
that the interrogator is suggesting because if the
suspect does so, he will receive a lower charge, a
lesser amount of punishment and/or no time in
prison, but if he fails to do so, he will receive a higher
11 This technique is sometimes referred to in the academic literature as the maximization/minimization technique. See Saul
Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson, Richard
A. Leo and Allison Redlich (2010). “Police-Induced Confessions:
Risk Factors and Recommendations” in Law and Human
Behavior, 34, 3-38; Richard A. Leo (2008), POLICE INTERROGATION AND AMERICAN JUSTICE (Harvard University
Press).

App.99a
charge, a greater amount of punishment and more
time in prison, perhaps even the death penalty.
To evaluate whether a particular interrogation was
psychologically coercive, an expert must evaluate the
interrogator’s techniques, methods, and strategies in
the light of the generally accepted findings of the
social science research literature on the subjects of
interrogation, coercive influence techniques, and confessions.
Social science research has repeatedly demonstrated that some systemic inducements (depending on the
content of the inducement, how explicitly or vaguely
it is stated, and the message that it communicates)
and all high-end inducements are coercive because
they rely on implicit and/or explicit promises of
leniency and threats of harm to induce compliance.
Systemic and high-end inducements increase the
likelihood of eliciting false confessions and false
statements from suspects because of the quid pro quo
arrangement and the benefit a suspect expects to
receive in exchange for the information the interrogator is seeking, regardless of whether the suspect
knows that information to be true or not. Such
promises of leniency and threats of harm are regarded
as coercive in the social science literature because of
the messages they convey and their demonstrated
impact on the decision-making of individuals. The
expert may also evaluate whether the interrogation
techniques, either individually or cumulatively, had
the effect of causing a suspect to perceive that he had
no choice but to comply with the demands of the
interrogator, and thus, the interrogation, in effect,
overbore the suspect’s will.

App.100a
VI. The Three Types of False Confessions
False confessions and false statements, of course,
will occur in response to traditionally-coercive methods
of interrogation such as the use of physical violence,
threats of immediate physical harm, excessively long
or incommunicado interrogation, or deprivation of
essential necessities such as food, water, and/or sleep.
However, these types of traditionally coercive techniques no longer appear to be common in the United
States. The psychological techniques of interrogation
that cross the line and sometimes cause false confessions typically involve one of two patterns: (1) the
interrogator communicates to the suspect, implicitly
or explicitly, that he will receive a higher charge and
harsher sentence or punishment if he does not provide a satisfactory statement, but that he will receive
a lesser charge or sentence, or perhaps no punishment at all, if he does; or (2) the interrogator wears
down and distresses the suspect to the point that the
suspect subjectively feels that he has no choice but to
comply with the interrogator’s demands if he is to
put an end to the intolerable stress of continued
interrogation and/or escape the oppressive interrogation environment.
Whether a police-induced false confession or statement is caused primarily by coercive interrogation
techniques or by a suspect’s pre-existing vulnerabilities
to interrogation, or some combination of both, there
are three fundamental types of false confessions and
statements: a voluntary false confession or statement
(i.e., a false confession knowingly given in response
to little or no police pressure); a coerced-or stresscompliant false confession or statement (i.e., a false
confession knowingly given to put an end to the

App.101a
interrogation or to receive an anticipated benefit or
reward in exchange for confession); and a coerced-or
non-coerced-persuaded false confession or statement
(i.e., a confession given by a suspect who comes to
doubt the reliability of his memory and thus comes to
believe that he may have committed the crime,
despite no actual memory of having done so).12 These
different types of false confession typically involve
different levels of police pressure, a different psychology of influence and decision-making, and different
beliefs about the likelihood of one’s guilt. Regardless
of type, false confessors typically recant their confessions shortly after they are removed from the pressures and reinforcements of the interrogation environment.
VII. The Three Sequential Police Errors That Can Lead
to False (But Sometimes Detailed) Confessions
There are three important decision points in the
interrogation process that are known to be linked to
false confessions or statements. The first decision point
is the police decision to classify someone as a suspect.
This is important because police only interrogate
individuals whom they first classify as suspects;
police interview witnesses and victims. There is a big
difference between interrogation and interviewing:
unlike interviewing, an interrogation is accusatory,
involves the application of specialized psychological
interrogation techniques, and the ultimate purpose of
an interrogation is to get an incriminating statement
12 See Richard Ofshe and Richard A. Leo (1997) “The Social
Psychology of Police Interrogation: The Theory and Classification of
True and False Confessions.” Studies in Law, Politics & Society,
Vol. 16. Pp. 189-251.

App.102a
from someone whom police believe to be guilty of the
crime. False confessions or statements occur when
police misclassify an innocent suspect as guilty and
then subject him to a custodial interrogation, and are
satisfied with elicitation of a version of events that,
in fact, is not true. This is one reason why interrogation training manuals implore detectives to investigate their cases before subjecting any potential suspect
to an accusatorial interrogation. 13
The second important decision point in the process
occurs when the police interrogate the suspect. Again,
the goal of police interrogation is to elicit an incriminating statement from the suspect by moving him
from denial to admission. To accomplish this, police
use psychologically-persuasive, manipulative, and
deceptive interrogation techniques. As described in
detail in the previous sections, police interrogators
use these techniques to accuse the suspect of committing the crime, to persuade him that he is caught
and that the case evidence overwhelmingly establishes his guilt, and then to induce him to confess by
suggesting it is the best course of action for him.
13 Fred Inbau, John Reid and Joseph Buckley (1986). CRIMINAL
INTERROGATION AND CONFESSIONS, Third Edition
(Baltimore, MD: Williams & Wilkins) at 3 (“Prior to the interrogation, and preferably before any contact with the suspect, become
thoroughly familiar with all the known facts and circumstances of
the case.”). See also Fred Inbau, John Reid, Joseph Buckley and
Brian Jayne (2013). CRIMINAL INTERROGATION AND
CONFESSIONS, 5th Edition (Burlington, MA: Jones & Bartlett
Learning) at 18 (“One basic principle to which there must be full
adherence is that the interrogation of suspects should follow,
and not precede, an investigation conducted to the full extent
permissible by the allowable time and circumstances of the particular case. The authors suggest, therefore, that a good guideline to follow is “investigate before you interrogate”).

App.103a
However, properly trained police interrogators do not
use physically-or psychologically-coercive techniques
because they may result in involuntary and/or unreliable incriminating statements, admissions, and/or
confessions.
The third important decision point in the interrogation process occurs after the police have elicited
an admission—an “I did it” statement—from the
suspect. This is referred to as the post-admission
phase of the interrogation. The post-admission phase
of the interrogation is important because it is here
that the police can acquire information and evidence
that will either support or not support the accuracy
of the suspect’s admission. Properly-trained police
interrogators should know that innocent people sometimes falsely confess to crimes they did not commit.14
Properly-trained police interrogators also know that
guilty suspects sometimes implicate others for crimes
they themselves committed in order to diminish their
role in the crime. Interrogators therefore will seek to
elicit information (that is not generally known and
cannot likely be guessed by chance) from the suspect
that either demonstrates, or fails to demonstrate,
14 Although the “Reid” Manual (CRIMINAL INTERROGATION AND CONFESSIONS by Fred Inbau et al.) did not include a
full chapter on false confessions until the Fourth Edition in
2001, the need for police interrogators to be diligent to avoid
false confessions has been present for decades. From the very
first manual in 1942 and in all subsequent editions (1948, 1953,
1962, 1967, 1986, 2001 and 2013), it has repeatedly implored
interrogators not to use any methods that are “apt to make an
innocent person confess to a crime he did not commit,”
implicitly, if not explicitly, suggesting that police interrogator
do know that suspects can be made to falsely confess to crimes
they did not commit.

App.104a
independent knowledge of the crime scene details
and case facts. Properly-trained police interrogators,
therefore, will not ask leading or suggestive questions and will not educate the suspect about details
of the victim’s allegations or of the alleged crime.
Instead, they will let the suspect supply the details of
the case independently. Properly-trained police interrogators will also seek to test the suspect’s post-admission account against the physical and other credible evidence. Truthful confessions and statements
are typically corroborated by solid physical evidence
and independent knowledge of underlying case facts
that have not been suggested to the suspect; false
confessions and false statements are not. 15
VIII. Populations with Particular Vulnerability in
the Interrogation Room
While coercive and/or improper interrogation
techniques are often the primary cause of false confessions, certain types or groups of individuals are
far more vulnerable to the pressures of interrogation,
having their will overborne and/or making a false
confession. This includes individuals who are mentally
ill, and therefore may confess falsely because they
are easily confused, disoriented, delusional or experiencing a non-rational emotional or mental state.
15 Richard A. Leo and Richard Ofshe (1998). “The Consequences of
False Confessions: Deprivations of Liberty and Miscarriages of
Justice in the Age of Psychological Interrogation” The Journal
of Criminal Law and Criminology. Vol. 88, No. 2. Pp. 429-496.
This observation has been made in the police interrogation
training literature as well. See also Fred Inbau, John Reid,
Joseph Buckley and Brian Jayne (2013). CRIMINAL INTERROGATION AND CONFESSIONS, 5th Edition (Burlington,
MA: Jones & Bartlett Learning) at 354-360.

App.105a
This also includes juveniles and individuals with a
low IQ or low-level cognitive functioning, who may be
more vulnerable to interrogators because of their
inability to understand the nature or gravity of their
situation, their inability to foresee the consequences
of their actions, their inability to cope with stressful
situations and/or their eagerness to please others,
especially authority figures. Juveniles may also be
more easily intimidated than adults and may lack
the maturity, knowledge, or sense of authority needed
to resist simple police pressures and manipulations.
Finally, this also includes individuals who, by their
nature and personality, are naive, excessively trusting
of authority, highly suggestible and/or highly compliant
and who are therefore predisposed to believe that
they have no choice but to comply with the demands
of authorities or who simply lack the psychological
resources to resist the escalating pressures of accusatorial interrogation.
IX. Evaluating the Reliability of Incriminating
Statements, Admissions and Confessions
In addition to studying the psychology of police
interrogation and the correlates and causes of false
confessions from the innocent, scientific researchers
have also analyzed the patterns, characteristics and
indicia of reliability in true and false confession
cases. To evaluate the likely reliability or unreliability of an incriminating statement, admission or
full confession from a suspect, scientific researchers
analyze the fit between the suspect’s post-admission
narrative and the crime facts and/or corroborating
evidence derived from the confession (e.g., location of

App.106a
the missing murder weapon, loot from a robbery, the
victim’s missing clothing, etc.). 16
The purpose of evaluating the fit between a
suspect’s post-admission narrative and the underlying crime facts and derivative crime evidence is to
test the suspect’s actual knowledge of the crime. If the
suspect’s post-admission narrative corroborates details
only the police know, leads to new or previously
undiscovered evidence of guilt, explains apparent
crime fact anomalies and is corroborated by independent facts and evidence, then the suspect’s post-admission narrative objectively demonstrates that he
possesses the actual knowledge that would be known
only by the true perpetrator and therefore is strong
evidence of guilt. If the suspect cannot provide police
with the actual details of the crime, fails to accurately
describe the crime scene facts, cannot lead the police
to new or derivative crime evidence, and/or provides
an account that is full of gross errors and disconfirmed by the independent case evidence, then the
suspect’s post-admission narrative demonstrates that
he fails to possess the actual knowledge that would
be known only by the true perpetrator and is therefore strongly consistent with innocence. Indeed, absent
contamination, the fit between the suspect’s post-admission narrative and both the crime scene facts and
the derivative crime evidence therefore provides an
16 See Richard Ofshe and Richard A. Leo (1997) “The Social Psychology of Police Interrogation: The Theory and Classification of
True and False Confessions.” Studies in Law, Politics & Society,
Vol. 16. Pp. 189-251; and Richard A. Leo and Richard Ofshe (1998).
“The Consequences of False Confessions: Deprivations of Liberty
and Miscarriages of Justice in the Age of Psychological Interrogation” The Journal of Criminal Law and Criminology. Vol. 88,
No. 2. Pp. 429-496.

App.107a
objective basis for evaluating the likely reliability of
the suspect’s incriminating statements.
The well-established and widely accepted social
science research principle of using the fit standard to
evaluate the validity of a confession statement is also
a bedrock principle of criminal investigation within
law enforcement. Properly trained police detectives
realize that an “I did it” statement is not necessarily
evidence of guilt and may, instead, turn out to be evidence of innocence. For example, in high-profile murder
cases, police regularly screen out volunteered confessions by seeing whether or not the person can tell the
police details known only to the perpetrator or lead
the police to derivative crime evidence that either
corroborates, or fails to demonstrate, the person’s
guilty knowledge. Police often keep particularly heinous
or novel aspects of the crime from the press so that
they can be used to demonstrate a confessor’s guilty
knowledge. Police sometimes deliberately include an
error in media releases or allow incorrect statements
to go uncorrected so that a true perpetrator will be able
to demonstrate his personal knowledge of the crime.
In other types of cases, police detectives regularly
rely upon the fit standard to identify a true admission that might be mixed in with a collection of
volunteered statements.
Using the fit standard to evaluate the validity of
a suspect’s incriminating statements, admissions or
confessions is a bedrock principle of law enforcement
because police detectives realize that seeking corroboration during the post-admission phase of interroga-

App.108a
tion is essential to proper investigative work.17 This is
because it is a fundamental principle of police investigation that true explanations can be supported and
false explanations cannot be supported (assuming no
contamination has occurred), and because false explanations will not fit the facts of the crime, lead to
derivative evidence or be corroborated by independent evidence.
Moreover, post-admission narrative analysis and
the fit standard are central to proper criminal investigation because properly-trained detectives should
realize that the purpose of detective work is not to
clear a crime or get a conviction, but to carefully
collect evidence in a way that will lead to the arrest,
prosecution and conviction of the guilty while at the
same time ensuring that no innocent individual is
wrongly arrested, prosecuted or convicted.
A suspect’s post-admission narrative therefore
provides a gold mine of potential evidence to the
unbiased, properly-trained detective who is seeking
to ferret out the truth. If the suspect is guilty, the
collection of a detailed post-admission narrative will
allow the detective to establish the suspect’s guilt
beyond question, both by demonstrating the suspect’s
actual knowledge and by corroborating the suspect’s
statements with derivative evidence. Properly-trained
detectives realize that the strongest form of corroboration comes through the development of new evidence
using a suspect’s post-admission narrative. While it
is not possible to verify every post-admission narrative
17 Fred Inbau, John Reid, Joseph Buckley and Brian Jayne (2013).
CRIMINAL INTERROGATION AND CONFESSIONS, 5th Edition
(Burlington, MA: Jones & Bartlett Learning) at 354-360.

App.109a
with the crime facts, a skillful interrogator will seek
as much verifiable information about the crime as he
can elicit. The more verifiable information elicited from
a suspect during the post-admission period and the
better it fits with the crime facts, the more clearly
the suspect demonstrates his responsibility for the
crime.
If the suspect is innocent, the detective can use
the suspect’s post-admission narrative to establish
his lack of knowledge and thus demonstrate his
likely or certain innocence. Whereas a guilty suspect
can corroborate his admission because of his actual
knowledge of the crime, the innocent suspect cannot.
The more information the interrogator seeks, the
more frequently and clearly an innocent suspect will
demonstrate his ignorance of the crime. His answers
will turn out either to be wrong, to defy evaluation,
or to be of no value for discriminating between guilt
and innocence. Assuming that neither the investigator
nor the media have contaminated the suspect by
transferring information about the crime facts, or
that the extent of contamination is known, the likelihood that his answers will be correct should be no
better than chance. Absent contamination, the only
time an innocent person will contribute correct information is when he makes an unlucky guess. The
likelihood of an unlucky guess diminishes as the
number of possible answers to an investigator’s questions grows large. If, however, his answers about
missing evidence are proven wrong, he cannot supply
verifiable information that should be known to the
perpetrator, and he inaccurately describes verifiable
crime facts, then the post-admission narrative provides evidence of innocence.

App.110a
This, of course, assumes that the suspect’s knowledge of the crime has not been contaminated by the
media, community gossip, the police or some other
source with inside knowledge about crime details. If
a suspect has learned unique or non-public crime
facts from one of these sources, then the fact that his
confession contains these details is, of course, not
indicative of pre-existing knowledge or probative of
guilt. This problem is discussed in detail in the
following section.
X.

The Problem of Contamination

The post-admission narrative process is about
more than merely eliciting information from the
suspect. Investigators in practice have been observed
to shape the suspect’s narrative to make the confession as persuasive as possible and to enhance the
chances of conviction.18 In this way, confessions are
scripted or constructed by interrogators. A persuasive crime narrative requires an explanation of
why the crime happened— the motives and explanations of the suspect for committing the crime. It also
should contain a statement of the suspect’s emotions,
not only his or her emotions at the time of committing the crime, but also the shame, regret, or
remorse the suspect now feels for having committed
the crime. Interrogators are also trained to get the
suspect to cleanse the interrogation process, usually
by providing statements to the effect that the confession was voluntary. Interrogators will ask the
suspect, usually after the suspect’s resistance has
been broken down and he has been made to believe
18 Richard A. Leo (2008). POLICE INTERROGATION AND
AMERICAN JUSTICE (Harvard University Press) at 165-194.

App.111a
that it is in his best interests to confess, whether the
suspect was treated well, given food and drink,
bathroom breaks, and other comforts, and whether
any promises or threats were made to the suspect.
Finally, and perhaps most importantly, interrogators
seek to ensure that the confession contains both
general and specific crime knowledge—the details of
the crime that only the true perpetrator should
know.
The problem of contamination in false confession
cases arises when the interrogator pressures a
suspect during the post-admission narrative phase to
accept a particular account of the crime story—one
that usually squares with the interrogator’s theory of
how the crime occurred—and then suggests crime
facts to the suspect, leads or directs the suspect to
infer correct answers, and sometimes even suggests
plausible motives for committing the crime.19 Because
they are trained to presume the guilt of those whom
they interrogate, American police assume that they
are interrogating suspects who already know the correct crime facts. But this is not true when they are
mistakenly interrogating an innocent person.
Instead, the innocent suspect is pressured to use
facts disclosed to him by his interrogators in order to
construct a plausible-sounding confession and postadmission narrative. Indeed, the presence of these
details in the suspect’s confession falsely gives the
suspect’s narrative credibility and the appearance of
corroboration. After police interrogators have contaminated the suspect with non-public crime facts,
19 Richard A. Leo (2008), POLICE INTERROGATION AND
AMERICAN JUSTICE (Harvard University Press).

App.112a
they often attribute “guilty knowledge” to the suspect
when he repeats back and incorporates into his confession the very facts that they first educated him
about. One researcher has called these contaminated
details “misleading specialized knowledge.”20 In many
false confession cases, police and prosecutors argue
that the suspect’s confession corroborates his guilt
because he “knows facts only the true perpetrator
would know,” even though the suspect first learned
these facts from his interrogators. Of course, if the
interrogation process is not electronically recorded,
the interrogator is free to assert that these crime
facts were volunteered by the suspect and the trial
devolves into a swearing contest between the suspect
and the interrogators over who was the source of the
details in the confession. If the entire process is recorded, however, then it may be possible to trace the
contamination.
Researchers have found that contamination by
police regularly occurs in interrogation-induced false
confession cases. In a study of the first two-hundred
and fifty (250) post-conviction DNA exonerations of
innocent prisoners in the American criminal justice
system, Professor Brandon Garrett of the University
of Virginia Law School showed that this pattern was
present in 95% of the false confession cases in this
data set (38 of 40 cases). In other words, in the overwhelming majority of these proven false confession
cases, police interrogators fed the suspect unique nonpublic facts that “only the true perpetrator would
know,” but the prosecutor erroneously alleged that the
20 Gisli Gudjonsson (2003), THE PSYCHOLOGY OF INTERROGATIONS AND CONFESSIONS: A HANDBOOK (John
Wiley & Sons Inc).

App.113a
suspect volunteered these facts and that the suspect
thereby corroborated the reliability of his confession.
But because the jury in each case mistakenly believed
the prosecutor rather than the defense, each of the
confessors was convicted, and in each of these cases
the defendant’s innocence (and the falsity of the confession) was only proven many years later by DNA.21
In a recent follow-up study more recent false confession DNA exonerations, Garrett found that another
21 of 23 (91%) were contaminated.22
In sum, the problem of contamination means that
when applying the fit test to assess the reliability of
the confession, it is essential to separate out the contaminated facts from the facts that unquestionably
were provided by the defendant.
XI. Professional Opinions
During the custodial interrogations of Thomas
Sander, detectives Oestreich and Klauzer intentionally utilized numerous techniques that the
empirical social science research has shown
significantly increase the risk of eliciting unreliable and false confessions when applied to
innocent suspects. These include:
1) Presumption of Guilt, Presumption of Guilty
Knowledge, and Investigative Bias.23 Substantial social
21 Brandon Garrett (2011). CONVICTING THE INNOCENT
(Harvard University Press)
22 Brandon Garrett (2015). “Contaminated Confessions Revisited,”
Forthcoming in University of Virginia Law Review.
23 See Saul Kassin, Christine Goldstein, and Kenneth Savitsky
(2003). “Behavioral Confirmation in the Interrogation Room: On
the Dangers of Presuming Guilt.” Law and Human Behavior, 27,

App.114a
science research has demonstrated that a behavioral
presumption of guilt leads to tunnel vision, confirmation bias, and investigative bias among police investigators, who, as a result, often end up eliciting unreliable case information.24 When investigators begin with
or arrive at a premature presumption of guilt, they
seek to build a case against an individual whose guilt
they assume a fortiori-rather than seeking to evenhandedly collect factual information and objectively
investigate a case. Under these circumstances, investigators act as if they are seeking to prove their preexisting theories or conclusions rather than investigate a hypothesis. This mental framework causes
investigators to disregard contradictory information and
evidence, selectively [mis]characterize existing information and evidence, misinterpret a suspect’s statements and behavior to conform with the investigators’
pre-existing assumptions, and to more aggressively
interrogate suspects whose guilt they presume.25 Most
significantly, social science research has demonstrated
that investigators’ pre-existing presumption of guilt
puts innocent suspects at an elevated risk of making
187-203; C. Hill, A. Memon, and P. McGeorge (2008). “The Role
of Confirmation Bias in Suspect Interviews: A systematic Evaluation.” Legal & Criminological Psychology, 13, 357-371; and Fadia
Narchet, Christian Meissner, and Melissa Russano (2011),
“Modeling the Influence of Investigator Bias on the Elicitation
of True and False Confessions.” Law and Human Behavior, 35,
452-465.
24 See Carol Tavris and Elliott Aronson (2007). Mistakes Were
Made (But Not By Me). (Harcourt Books).
25 See Saul Kassin, Christine Goldstein, and Kenneth Savitsky
(2003). “Behavioral Confirmation in the Interrogation Room: On
the Dangers of Presuming Guilt.” Law and Human Behavior, 27,
187-203.

App.115a
or agreeing to a false statement, admission, or confession in order to satisfy overzealous investigators and
put an end to the accusatory pressures of sustained
police interrogation.26
This process of investigative bias, tunnel vision,
and a premature conclusion of guilt – setting in motion
a series of events in which the police try to create a
case against an individual by eliciting a confession of
guilt rather than seeking to even-handedly or objectively investigate the case against that individual or
to develop an investigation based on where the evidence leads them (as opposed to their pre-existing
theories) – is exactly what happened here. The detectives’ investigative failures and unwavering presumption of guilt led to the tunnel vision, rush to judgment and behavioral confirmation bias that has been
documented in so many psychological studies and in
cases of police-induced false confession and erroneous
conviction of the innocent.27
Without even the pretense of investigating any
other possibility,28 the detectives immediately concluded that Thomas Sander started the fire at
Trinity High School, and then set out to build a case
26 Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson,
Richard A. Leo and Allison Redlich (2010). “Police-Induced Confessions: Risk Factors and Recommendations” in Law and Human
Behavior, 34, 3-38.
27 Keith Findley and Michael Scott (2006). “The Multiple Dimensions of Tunnel Vision in Criminal Cases,” University of Wisconsin
Law Review, 291-397.
28 See Detective Klauzer’s testimony at the Suppression Hearing,
P. 18. See also Klauzer Deposition, P. 200 and Detective Moser
Deposition at P. 79.

App.116a
against him, as if that were the only possibility, despite
the lack of any objective evidence supporting their
suspicions. Their premature conclusion of his guilt
appears to be based primarily on SPO Hanson’s
misinterpretation of Thomas Sander’s alleged body
language and the secondarily on fact that Thomas
Sander was the reporting party, again rather than
any real or meaningful evidence. For example, SPO
Hanson immediately concluded that Thomas Sander
was lying, and thus guilty, of setting the fire, because
in his initial interview by SPO Hanson, Thomas
Sander failed to “maintain eye contact”, appeared
“nervous” and “uneasy,” appeared “eager to give
alternative options,” and thus was showing “different
signs of deception.”29 Even Thomas Sander’s use of the
word “story” in response to SPO Hanson’s questioning
somehow, absurdly, indicated that he was being
deceptive and thus lying about whether he started
the fire at Trinity High School on March 3rd.30 Immediately following SPO Hanson’s presumption of Thomas
Sander’s guilt, the detectives “locked in”31 on Thomas
Sander as the only possible suspect, and set out to
build a case against him. One even told Patrick
Schumacher that their goal was to build such a tight
case against Thomas Sander that his own defense
attorney would tell him to plead guilty in order to
“cut his losses.” After James Gordon confessed that
he started the fire, and (unlike Thomas Sander) pro29 Master Incident Report at PL000054. See also Email from Ken
Klauzer to Nicholas Gates dated March 6, 2014 titled “Great
Job By All”
30 See Master Incident Report at PL00056.
31 See Klauzer Deposition, P. 122

App.117a
vided corroborating evidence of the reliability of his
confession, Detective Moser said of James Gordon
“let’s get him the hell out of the way” because he did
not want the fact of James Gordon’s corroborated
confession to undermine the successful prosecution of
Thomas Sander,32 to which Detective Moser, as well
as Detectives Klauzer and Oestreich, were unalterably
and blindly committed. So biased was Detective
Klauzer, for example, that he asserted in his deposition that Thomas Sander was intentionally inserting
errors into his confession in order to build a defense
at trial,33 apparently never considering that a suspect
wishing to build a defense against prosecution would
never confess at all in the first place or that factual
errors in a confession might reveal a lack of inside or
personal knowledge about the crime facts that is a
hallmark of false and unreliable confessions.
The detectives’ rush to judgment and premature
conclusion of Thomas Sander’s alleged guilt in starting
the Trinity High School fire was both incompetent
and reckless in its disregard for the truth and disregard of the potentially disastrous consequences of factually misclassifying Thomas Sander and subjecting
him to a guilt-presumptive, accusatory and potentially
coercive interrogation that could elicit a manifestly
and completely false confession from a factually innocent individual and lead to an erroneous prosecution
and/or conviction. It was incompetent because police
investigators are not “human lie detectors” and should
never base the decision to interrogate on their gut
hunches about someone’s body language or demeanor
32 See Deposition of Detective Moser, Pp. 123 and 179.
33 See Deposition of Detective Klauzer at P. 187

App.118a
or arbitrary use of meaningless words, but should,
instead, only base such decisions on objective evidence of likely or potential guilt. There was none
here indicating that Thomas Sander set the Trinity
fire. The social scientific research clearly indicates
that whether someone appears nervous or maintains
eye contact or uses words like “story” is not diagnostic of whether someone is actually lying or telling
the truth. These are not accurate cues to deception,
and police investigators are not accurate “human lie
detectors.”34
The detectives’ rush to judgment and premature
conclusion of Thomas Sander’s alleged guilt in
starting the Trinity High School fire was reckless
because in their rush to build a case against Thomas
Sander and deliver incriminating evidence against
him to the prosecution, the detectives abandoned
their role as independent and neutral fact investigators and created a substantial risk, of which they
should have been aware, that they would elicit a
false and unreliable confession from Thomas Sander.
Had the detectives made the effort, and taken the time,
to properly investigate this case, they would have
realized that Thomas Sander has a social anxiety disorder that makes him sometimes appear nervous,
uneasy or awkward around others. They would have
also realized that subjecting Thomas Sander to a
guilt presumptive accusatory interrogation based on
no evidence of his guilt at all could elicit a false and
unreliable confession from him. And they would have
realized that James Gordon, not Thomas Sander, provided a voluntary and corroborated confession to start34 See Richard A. Leo (2008). POLICE INTERROGATION
AND AMERICAN JUSTICE (Harvard University Press).

App.119a
ing the Trinity High fire. In short, the detectives would
have realized that they were prematurely rushing to
judgment and willfully creating a substantial and
unjustifiable risk of eliciting false information, setting
in motion a false prosecution, and potentially causing
a false conviction by failing to base their interrogation of Thomas Sander on their unsubstantiated gut
hunches about his demeanor rather than conducting
any meaningful investigation.
2) Lengthy Interrogation and Sleep Deprivation.
Lengthy interrogation/custody and sleep deprivation
are two related situational risk factors for making or
agreeing to a false confession during police interrogation.35 Empirical studies indicate that the overwhelming majority of routine custodial interrogations last
less than one hour,36 whereas the combined time
period of custody and interrogation in most interrogations leading to a false confession is more than six
hours.37 The Reid and Associates police interrogation
training manual specifically recommends that police
interrogate for no longer than four (4) hours absent
“exceptional situations” and that “most cases require

35 See Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson, Richard A. Leo and Allison Redlich (2010). “Police-Induced
Confessions: Risk Factors and Recommendations” in Law and
Human Behavior, 34, 3-38.
36 Richard A. Leo (1996). “Inside the Interrogation Room,” Journal
of Criminal Law and Criminology, 86, 266-303. See also Barry
Feld (2013). Kids, Cops and Confessions: Inside the Interrogation Room (New York, NY: New York University Press).
37 Steven Drizin and Richard A. Leo (2004). “The Problem of
False Confessions in the Post-DNA World. North Carolina Law
Review, 82, 891-1007.

App.120a
considerably fewer than four hours.”38 Lengthy detention and interrogation is a significant risk factor for
false confessions because the longer an interrogation
lasts, the more likely the suspect is to become fatigued
and depleted of the physical and psychological
resources necessary to resist the pressures and stresses
of accusatory interrogation,39 especially where investigators use physically or psychologically coercive
methods.40 It can also lead to sleep deprivation,
which, as mentioned earlier, heightens interrogative
suggestibility by impairing decision-making abilities,
such as the ability to anticipate risks and consequences, inhibit behavioral impulses and resist suggestive
questioning.41 The longer an interrogation lasts, the
more pressure investigators bring to bear on the
suspect and the more techniques and strategies they
may use to move the suspect from denial to admission.
Researchers consider the length of an interrogation
38 Fred Inbau, John Reid, Joseph Buckley and Brian Jayne (2001).
CRIMINAL INTERROGATION AND CONFESSIONS, 4th Edition
(Gaithersburg, Maryland: Aspen Publishers, Inc) at 597.
39 Deborah Davis and Richard A. Leo (2012). “Interrogation
Related Regulatory Decline: Ego-Depletion, Failures of SelfRegulation and the Decision to Confess” Psychology, Public
Policy and Law, Vol 18. Pp. 673-704.
40 Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson,
Richard A. Leo and Allison Redlich (2010). “Police-Induced Confessions: Risk Factors and Recommendations” in Law and Human
Behavior, 34, 3-38.
41 Mark Blagrove (1996). “Effects of length of sleep deprivation on
interrogative suggestibility. Journal of Experimental Psychology:
Applied, 2, 48-59. See also Stephen Frenda, Shari R. Berkowitz,
Elizabeth F. Loftus, and Kimberly M. Fenn (2016). “Sleep Deprivation and False Confessions.” Forthcoming in the Proceedings of

the National Academy of Sciences.

App.121a
to include both the time that a suspect is being
questioned and/or accused as well as any breaks
between questioning/accusation sessions because
breaks between accusation and questioning add to
the stress and fatigue of the interrogation and sometimes is used as an interrogation technique itself.
The detectives interrogated on March 3-5, 2014 for
almost 10 hours. When he was first interrogated in
the early morning hours on March 3rd, Mr. Sander
had slept less than one hour. That interrogation
lasted approximately 4 hours, from approximately 5
am to 9 am. On March 4th, Mr. Sander was detained
and interrogated for almost 5 and ½ hours, from 11
a.m. to 4:30 p.m. Like most proven false confessions,
the length of time during which Mr. Sander was
interrogated and/or in custody for purposes of interrogation, was extraordinary,42 and therefore, along
with the sleep deprivation it contributed to and
induced, became a potent risk factor for false confession.
3) False evidence ploys. Police interrogators
routinely tell criminal suspects that the evidence
establishes their guilt: if police possess real evidence,
this is called a true evidence ploy. If police are
making up, lying about, or exaggerating non-existent
evidence, this is called a false evidence ploy. The
social science research literature has demonstrated
that false evidence ploys are virtually always present
in, and substantially likely to increase, the risk of
eliciting false statements, admissions, and/or confes42 Steven Drizin and Richard A. Leo (2004). “The Problem of
False Confessions in the Post-DNA World. North Carolina Law
Review, 82, 891-1007.

App.122a
sions. False evidence ploys are among the most welldocumented situational risk factors for eliciting false
and unreliable statements, admissions, and/or confessions, as described in the social science research
literature.43 Many people do not know that police
detectives can legally lie by pretending to have incriminating evidence that does not exist, is fabricated or
is exaggerated; even those who suspect that the police
may be bluffing about the evidence are likely to fear
that police will manipulate evidence to prosecute
them. The use of false evidence ploys can create or
contribute to the suspect’s perception that he or she
is trapped, there is no way out, and/or that his conviction will be inevitable, thus leading to the perception that he or she is in a hopeless situation and has
little choice but to agree to or negotiate the best
available outcome or mitigation of punishment given
the perceived, subjective reality of the suspect’s situation.
In Mr. Sander’s many hours of interrogation,
Detectives Klauzer and Oestreich repeatedly and
intentionally lied to him about imaginary evidence
that they falsely claimed existed against him and that
they falsely claimed incontrovertibly established his
guilt in setting the Trinity High fire. The detectives,
in general terms, repeatedly and aggressively told
Mr. Sander either that a lot of evidence pointed
toward Mr. Sander or that all the evidence pointed to
Mr. Sander or that a mountain of evidence pointed to
Mr. Sander or that the evidence was against him was
43 Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson, Richard A. Leo and Allison Redlich (2010). “Police-Induced
Confessions: Risk Factors and Recommendations” in Law and
Human Behavior, 34, 3-38.

App.123a
overwhelming. None of this was true, quite the opposite: the detectives possessed no actual evidence that
Mr. Sander set the first. More specifically, the detectives repeatedly lied to Mr. Sander by telling him that
they possessed handwriting evidence (made according
to a supposed 10 point match and training in document analysis), video evidence (i.e., alleged neighborhood security cameras), and witness statements either
suggesting, showing or establishing that he started
the fire. The detectives also claimed as evidence of his
guilt that Mr. Sander was present at the setting of
the fire, though this assertion is not consistent with
any case evidence. The detectives presented themselves as omniscient (they knew all the evidence and
all the facts), and repeatedly told Mr. Sander that
they knew for a fact that he was guilty, and that
there was no possible explanation other than that he
started the fire, and that they would not accept anything he stated to the contrary because, ironically, it
would be a lie. Like many innocent false confessors,
Mr. Sander was profoundly shaken by the repeated
police claims of evidence against him because he
assumed the investigators were acting in good faith
and did not know that they could lie. As he described
in his deposition, Mr. Sander had no reason not to
believe the police since he had never been interrogated by them before, and he did not know that
they could lie to him: “I only learned afterwards from
my criminal defense attorney that the police are
allowed to lie to suspects.” 44

44 Deposition of Thomas Sander (June, 2016) at P. 283.

App.124a
As a century of basic psychological research on
misinformation effects has shown45 (as well as
decades of psychological research on police lying to
suspects during interrogation),46 false evidence ploys
are effective at eliciting compliance,47 confusing some
suspects into believing that they have been framed or
that such evidence really does exist,48 causing some
suspects to doubt themselves (deferring to interrogators’ authoritative assertions of irrefutable evidence
despite knowing they did not commit a crime),49 and
even causing some suspects to develop false beliefs
and/or memories of committing crimes.50 Based on
45 Elizabeth Loftus (2005). “Planting Misinformation in the Human
Mind: A 30 Year Investigation of the Malleability of Memory,
Learning & Memory, 12, 361-366.
46 Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson, Richard A. Leo and Allison Redlich (2010). “Police Induced
Confessions: Risk Factors and Recommendations” in Law and
Human Behavior, 34, 3-38.
47 Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson, Richard A. Leo and Allison Redlich (2010). “Police Induced
Confessions: Risk Factors and Recommendations” in Law and
Human Behavior, 34, 3-38.
48 Richard Ofshe and Richard A. Leo (1997) “The Social
Psychology of Police Interrogation: The Theory and Classification
of True and False Confessions.” Studies in Law, Politics &
Society, Vol. 16. Pp. 189-251.
49 Richard Ofshe and Richard A. Leo (1997) “The Social Psychology of Police Interrogation: The Theory and Classification of
True and False Confessions.” Studies in Law, Politics & Society,
Vol. 16. Pp. 189-251.
50 Richard A. Leo (2008), POLICE INTERROGATION AND
AMERICAN JUSTICE (Harvard University Press) See also
Deborah Wright, Kimberly Wade and Derrick Watson (2013).

App.125a
well-established basic and applied social scientific
research going back decades, the multiple general and
specific false evidence ploys that the investigators
used in their interrogations of Mr. Sander significantly increased the risk of eliciting a false and
unreliable confession from him, especially the longer
his interrogation lasted and the more sleep deprived
and frightened he became.
4) Minimization and Maximization. A common
interrogation strategy is for investigators to portray
the offense in a way that minimizes its moral, psychological and/or legal seriousness, thus lowering the
perceived cost of confessing by communicating that
the consequences of confessing will not be that
serious. Interrogation techniques and strategies that
minimize the legal seriousness of the crime, in particular, are associated with and known to increase the
risk of eliciting false confessions. Such minimization
strategies can imply leniency, reduced punishment, or
even no punishment at all if the suspect perceives that
there is no consequence to confessing (i.e., either that
the act to which the suspect is confessing is not a
crime or that it carries little or no penalty).51
Conversely, interrogation techniques and strategies that maximize the legal seriousness of the crime
“Delay and Déjà Vu: Timing and Repetition Increase the Power
of False Evidence,” Psychonomic Bulletin Review, 20, 812-818;
Julia Shaw and Don Read (2014). “Constructing Rich False
Memories of Committing Crime,” Psychological Science, Pp. 111. Published online, January 14, 2015.
51 Saul Kassin, Steven Drizin, Thomas Grisso, Gisli Gudjonsson, Richard A. Leo and Allison Redlich (2010). “Police-Induced
Confessions: Risk Factors and Recommendations” in Law and
Human Behavior, 34, 3-38.

App.126a
– i.e., suggest that the suspect will face a bad or perhaps the worst possible outcome if he or she does not
make or agree to an incriminating statement-are also
associated with and known to increase the risk of
eliciting false confessions. Such maximization strategies
can imply harsher treatment, confinement, punishment, sentencing and/or other negative outcomes if
the suspect fails to comply and confess. The detectives repeatedly and intentionally used both minimization and maximization techniques, as detective
Oestreich acknowledged in his June 2016 deposition.52 For example, the detectives at various points
suggested that if Mr. Sander confessed, the setting of
the fire was not a big deal or just a mistake or that
no one got hurt in the fire or that that it was not his
fault or that it was not the end of the world, or that
they could work with that and that it wasn’t so bad
that it couldn’t be made right or that they were not
judging him, but that if he did not confess to starting
the fire, the consequences to him would be much
worse.
5) Explicit Promises and Threats. These minimization and maximization techniques did not merely
imply leniency and freedom (in exchange for
compliance and confession) and threaten substantially
harsher punishment (in the absence of compliance
and confession), but rather explicitly communicated
it. The detectives repeatedly promised Mr. Sander
that he would be able to put an end to the interrogation, leave the interrogation room and be able to go
home if he confessed to setting the fire; that they
could only work through this with him, go to bat for
52 Deposition of Terry Oestreich at 119-120.

App.127a
him and help him if he confessed to setting the fire;
that the court system and judge would look more
favorably on him if he confessed to setting the fire;
that they could make the case go away if he confessed to setting the fire; and that the detectives
could work with the State’s attorneys and Mr.
Sander would receive no jail time if he confessed.
Conversely, the detectives threatened that they could
not help him if he failed to confess to setting the fire;
that it would be immensely worse for him if he did not
confess to setting the fire; that other suspects in other
cases who turned failed confess, in the form of a plea
bargain, received much harsher prison sentences;
that he would receive the maximum penalty (10-20
years, a felony) if he did not confess; and that he
would be throwing away his career and hurting his
family if he did not confess to starting the fire. In their
depositions, the investigators admitted that they
used threats when interrogating Thomas Sander,
and in his recorded phone calls following his confession, Mr. Sander repeatedly stated that he falsely
confessed to starting the Trinity fire because of the
promise of freedom and immunity in exchange for his
confession and the threat of immediate arrest, prosecution and harsher punishment if he did not. In other
words, the detectives repeatedly made it explicitly
clear to Mr. Sander that whether he would go free
and escape prosecution, or be arrested, prosecuted
and go to prison for many years all depended on what
he told the detectives during the interrogation.
The use of explicit promises of leniency, immunity and/or a tangible benefit, as well as the use of
explicit threats of harm, significantly increases the risk
of eliciting an involuntary false statement, admission, and/or confession when applied to the innocent.

App.128a
Indeed, as empirical social science research has repeatedly demonstrated, promises of leniency—like threats
of harm or harsher punishment and whether explicit
or implicit—are widely associated with police-induced
false confession in the modern era and are believed to
be among the leading causes. Promises and threats
(whether implied or express) are inherently coercive
because they exert substantial pressure on a suspect
to comply and thus can easily overbear the will or
ability of a suspect to resist an interrogator’s demands
or requests. Like other high-end inducements, promises
and threats contribute to creating a sense of despair
and hopelessness about a suspect’s perceptions of his
available options during interrogation. Detectives
Oestreich and Klauzer intentionally used repeated
promises and threats in their interrogation of Tom
Sander with a reckless disregard for the consequences
of doing so. There may be no psychological interrogation technique more potent than the use of threats
and promises.
6) Psychological Coercion. As discussed earlier, it is
well-established that psychologically coercive interrogation techniques increase the risk of eliciting false
and/or involuntary incriminating statements, admissions and/or confessions. In my professional opinion,
I believe that the interrogations of Thomas Sander
were psychologically coercive for numerous reasons.
First, and perhaps most fundamentally, during
the March 4th interrogation, Mr. Sander stated that
he would like to leave the interrogation room if he
was not under arrest, put his jacket on and began to
stand up in order to leave. As he attempted to exit,
he was intentionally prevented from doing so, blocked
by Detective Klauzer, who escorted Mr. Sander back

App.129a
into the room and told him he was not free to leave,
despite the fact that Mr. Sander had been told he
was not under arrest. There were two other times
during this interrogation when Mr. Sander asked to
leave but was not permitted to do so, again despite
not being under arrest. Instead, after to his attempt
to voluntarily leave what he had been previously told
was a non-custodial interview, Mr. Sander was, is in
effect, pinned into one corner of the interrogation
room by Detectives Klauzer and Oestreich, who are
both much larger than him and who were blocking
the door (Klauzer is 6’2” and 240 lbs., and Oestreich
is 6’1” and 230 lbs.), as they continued to relentlessly
interrogate him. Intentionally preventing Mr. Sander
from leaving a supposedly non-custodial interview
when he was not under arrest is textbook psychological coercion and communicated that his freedom
and movement was completely under the control of
the detectives, who also invaded his personal space,
which is known by interrogators to cause interpersonal
distress and anxiety, and compelled him not only to
stay in the interrogation room but to continue
participating in a supposedly voluntary interrogation.
Second, and related, the detectives repeatedly
and intentionally denied Mr. Sander’s requests to be
allowed to go to the bathroom – until after he made
an incriminating statement agreeing with their accusations. They also failed to provide him with food or
water. Again, this is textbook interrogation coercion,
as all detectives either know or should know. And
again, this communicated that not only was Mr.
Sander’s bodily movement, but also his bodily functions, were under the complete control of the investi-

App.130a
gators depending on whether he complied with their
demands and ultimately on what he said.
Third, despite the fact that Mr. Sander was in
effect in custody and interrogated on March 4, the
detectives intentionally never gave Mr. Sander his required Miranda rights and intentionally did not seek
to elicit a required Miranda waiver from him. Nevertheless, Mr. Sander attempted to invoke his constitutional right to counsel to terminate Detective Klauzer’s
and
Detective
Oestreich’s
accusatory,
guiltpresumptive and increasingly intense and coercive,
interrogation of him, but the detectives intentionally
refused to let him do so. Detective Oestreich talked
Mr. Sander out of invoking his Miranda right to
counsel, thus refusing to allow him access to counsel
during the lengthy interrogation. Mr. Sander thus
did not appear to understand that he could consult
with an attorney during the interrogation, and
appears to have come to understand that he would
only be able to consult with an attorney after the
interrogation. Troublingly, the detectives intentional
violation of Miranda caused Mr. Sander to believe that
he would penalized if he consulted with an attorney
during the interrogation. As he stated during the
March 4th interrogation after the detectives had left
the room and he was describing what they told him
to a friend: “if I persist and get an attorney, you
know what, how that would go against me, and that
could just be bad and, you know, the jury and whatever would vote against me. I mean that’d be terrible
and I would get prison time, and that’s not good.”53

53 Interrogation of Tom Sander, March 4, 2014 at 204.

App.131a
Fourth, as discussed above, the March 4th interrogation of Mr. Sander is replete with numerous explicit promises and threats, techniques that are
regarded as inherently psychologically coercive because
they are so likely to overbear a suspect’s will and
lead to involuntary statements, especially over the
course of a lengthy interrogation.54 The March 4th
interrogation is striking for the number and explicitness of the threats made by both detectives Oestreich
and Klauzer. They intentionally threatened that Mr.
Sander could not be leave and would be placed in jail,
would be successfully prosecuted and convicted
because of the alleged overwhelming evidence against
him, and would receive a sentence of ten to twenty
years if he did not confess; but they promised him
that if he did confess he could leave the interrogation
room and go home, that they would work with
prosecutors to make sure he received no jail time,
and the judge would look more favorably on him,
thus receiving a sentence involving restitution and
community service, but not prison time. It is clear
that Mr. Sander both understood and acted on the
detective’s highly coercive and explicit threats and
promises in making his decision to provide his false
confession. As he described in a contemporaneous
phone call to a friend during a break in the March
4th interrogation:
“ . . . They said there was no way they could
let me leave free today if I denied starting
the fire, and that things would only get
54 The detectives’ threats and interrogation pressure had such
a profound impact on Mr. Sander that he wondered whether the
detectives were also going to physically assault him. See deposition of Thomas Sander at P. 303.

App.132a
worse. You know, greater sentencing, you
know, jail time and all that if I was, you
know, to go before a judge and be convicted
with their evidence. They said if I admitted
to starting the fire that I can go free today,
no jail time. You know, I’d have to go before
a judge and pay money and community
service hours and all that, but I’d have a
lesser sentence.”55
Sixth, the detectives wore firearms during their
interrogation, despite the clear admonition against
doing so by national interrogation training firms like
Reid & Associates, who teach police that wearing
guns during is, or can be interpreted as, coercive by
the suspect.
Finally, it is also clear from Mr. Sander’s contemporaneous statements on the phone to friends
immediately following his March 4th confession
statements that the detectives Klauzer and Oestreich’s interrogation methods caused him to believe
that he had no meaningful control over the conditions
of his custodial confinement and interrogation, and
ultimately that he had no meaningful choice but to
comply with the demands of detectives Klauzer and
Oestreich if he wished to persuade them to terminate
the interrogation, as well as to be able to go home,
and avoid a felony conviction carrying a ten to twenty
year prison sentence. Again, the March 4-5 interrogations of Mr. Sander were replete with textbook psychological coercion.56
55 Interrogation of Thomas Sander, March 14, 2014 at P. 202.
56 In my professional opinion, the interrogation coercion from
March 4th carried over to the March 5th interrogation, as indicated,

App.133a
7) Personality Traits as Risk Factors for False
Confession. In addition to the many situational risk
factors present in his account – the presumption of
guilt, lengthy interrogation, sleep deprivation, false
evidence ploys, minimization, implicit and explicit
threats and promises, and psychological coercion –
Thomas Sander was at a heightened risk of making
and agreeing to a false and unreliable confession
because of his personality traits and characteristics,
i.e., personal risk factors. Specifically, as Dr. Troy
Ertelt indicated in his June 20, 2014 assessment,
Thomas Sander is highly suggestible compared to the
general population and, more specifically, he has a
pronounced tendency to acquiesce to leading questions, scoring in the 97th percentile on this measure
of the Gudjonsson Suggestibility Scale (GSS) when
compared to the general population. This means, as
Dr. Ertelt states, that he has an extreme tendency to
succumb to the demands of authority figures, especially when placed under pressure, and to give in to
leading questions. As Dr. Ertelt notes, “his overall
level of interrogative suggestibility was significant
when compared to other adults in the general
population.”57 Mr. Sander is more likely to be easily
led and manipulated by authority figures, especially
under conditions of high interpersonal pressure. In
addition, Dr. Ertelt diagnosed Mr. Sander with Social
Anxiety Disorder, which causes Mr. Sander difficulties,
among other things, by Mr. Sander in his deposition. For example,
he stated that, ““I still had that in my mind, that there was a
slight possibility that by me admitting on March 5th still that
perhaps I might get an easy from the judge.” Deposition of
Thomas Sander at P. 303
57 Report of Dr. Troy Ertelt (June 20, 2014) at P. 15.

App.134a
awkwardness and nervousness in social interactions.
As a result of the personality traits identified by Dr.
Ertelt, Mr. Sander is highly vulnerable to making
and/or agreeing to a false and/or unreliable confession in order to please his interrogators, especially
the longer and/or more intense the interrogation(s)
last. As Dr. Ertelt notes, “Such social difficulties may
have increased his likelihood to acquiesce to his
interrogators when forceful and coercive tactics were
employed against him.”58 In short, Mr. Sander is
highly suggestible. Mr. Sander was especially vulnerable to making or agreeing to a false confession
during his her guilt-presumptive, accusatory, psychologically manipulative and highly coercive interrogations by detectives Oestreich and Klauzer on March
4-5, 2014.
8) Police Contamination and Scripting. As mentioned earlier, police interrogators are universally
trained not to contaminate a suspect by leaking or
disclosing non-public case facts to him or her but,
instead, to hold back unique case information and let
the suspect volunteer case details in order to demonstrate inside knowledge of the crime details to
corroborate the accuracy of any incriminating statements. The absence of contamination allows police to
verify the accuracy of reliable confessions, but the presence of contamination taints and prevents police
from corroborating confessions that are true and
makes confessions that are false misleadingly appear
true (because they contain non-public crime scene
details suggested by the interrogators, and repeated
by the suspect, but the claim is made that they were
volunteered by the suspect). Related to contamination,
58 Report of Dr. Troy Ertelt (June 20, 2014) at P. 23.

App.135a
police investigators sometimes “script” a suspect’s confessions when they not only provide the suspect with
details of the crime, but coach or lead the suspect to
adopt a narrative of how and why he and she committed the crime. Like contamination, scripting can
make otherwise completely false confessions appear
not only to be true but persuasively so.59
Police contamination and scripting is not so
much a risk factor for eliciting a confession – since it
often occurs after an admission has already been
made – as much as of making an otherwise false confession appear true. Police contamination and
scripting make false confessions appear true, and
persuasively true, because the innocent suspect’s
confession is said to contain “details that only the
true perpetrator would know” (erroneously since the
details were supplied by the police), and it contains
characteristics that most people associate with a true
confession (e.g., a story line, motive, explanation,
emotions and an attribution of voluntariness), even
though it is completely false.60 Contamination and
scripting therefore increase the risk that once a
suspect has falsely confessed to a crime he or she did
not commit, third parties – such as prosecutors,
judges, juries, the media and outside observers – will
mistakenly believe that the confession is true.
Detectives Oestreich and Klauzer not only
aggressively interrogated and coercively pressured Mr. Sander to admit to setting the
59 Richard A. Leo (2008). Police Interrogation and American
Justice (Harvard University Press).
60 Richard A. Leo (2008). Police Interrogation and American
Justice (Harvard University Press).

App.136a
Trinity Fire, but they also repeatedly conveyed to
him the details of their theory of the crime (for example, where it was started and how it was started),
telling Mr. Sander that a note had been written by
an individual claiming to have started the fire, and
pressuring Mr. Sander to adopt their theory of why
he would have started the fire, i.e., scripting the confession with the seemingly plausible motive that Mr.
Sander was angry about being non-renewed as a
principal at Trinity High and thus sought to exact
revenge on the school and his employer. In his deposition, Mr. Sander describes how the detectives
fabricated his false confession through contamination
and scripting:
“I thought I had no other option at that point,
that my only possible way to get out of the interview
that day without being arrested was based upon
what Detective Klauzer said that, hey, if you confess,
you can leave, get no jail time, no prison time,. And
asking about the details that I have and my false
confession, that actually that those specifics and
details were furnished to me by Detectives Klauzer and
Oestreich, that they’re the one that were indicating
that we know how this happened, Tom, and you
wanted to get rid of your personnel file and there
was, you know, a curtain there and other specifics like
that, so I just parroted back to them and told them
what they wanted to hear.”61
9) Hallmarks of a False Confession. The confession statements of Thomas Sander contained
numerous factual and logical errors, inconsistencies,
omissions, and other indicia of unreliability that are
61 Deposition of Thomas Sander (April 5, 2016) at P. 323

App.137a
the hallmarks of proven false confessions. Significantly,
Mr. Sander did not know non-public details of the crime
that, absent contamination, were not likely guessed
by chance but which the true perpetrator would have
known and almost certainly would have provided
once moved to confess. Moreover, Mr. Sander’s confession is inconsistent with the physical evidence:
namely, the ATF investigation regarding the origins
of the fire, where the first started, and how it was lit
– again, significant non-public facts that the true
perpetrator would have known. Mr. Sander confessed
to starting the fire in a cabinet but in fact it was
started outside a drawer in the vault, as corroborated
by the ATF report. Mr. Sander would have no reason
to get this fact wrong if in fact he had started the
fire. In addition, if we credit Robert Storey’s statements he provided police in his interview and written
statement,62 Mr. Sander was not even present at
Trinity High School at the time the fire started. In
short, Mr. Sander’s post-admission narrative bears
strong indicia of unreliability because it (1) reveals
his lack of personal knowledge about the non-public
details of the fire that were not supplied to him by
the police detectives; (2) falsely repeats back the
detectives erroneous theory of how the fire started;
62 Richard Holgard, Thomas Sander’s housemate, stated that
he went to bed on March 2nd at approximately 11:30 p.m. and
that Thomas Sander came home 5 minutes before he fell asleep;
Mr. estimates that he left nearby Trinity High at approximately
11:50 p.m. According to Mr. Holgard he received a phone call
from Mr. Storey at approximately 12:30 about the fire alarm.
According to the ATF Report, the fire alarm was triggered by a
pull station. We know that the pull station was pulled no earlier
than 12:15 a.m. If Mr. Holgard and Mr. Storey’s accounts are
accurate, Thomas Sander had left Trinity High at least 25
minutes before someone started the fire.

App.138a
and (3) is inconsistent with the physical and case evidence. In addition, Mr. Sander, though moved to confess to starting the fire, cannot lead police to new of
missing information or evidence or explain key facts
about the crime that the detectives did not already
know. These are all classic indicators of a false confession according to well-established and widely
accepted social science research, as discussed earlier
in this report.
On the contrary, and quite significantly, James
Gordon voluntarily and spontaneously confessed multiple times (over the phone, in a written note, during a
police interview) to setting the fire at Trinity High.
Unlike Mr. Sander’s confession, Mr. Gordon’s is not
the product of lengthy interrogation, sleep deprivation, lies about non-existent police evidence, minimization or maximization techniques, repeated explicit
promises of leniency and threats of harm, or psychological coercion. In other words, it does not contain
any situational risk factors for eliciting false and
unreliable confessions.
Perhaps more significantly, Mr. Gordon reveals
in his confessions non-public details known only by
the true perpetrator and the police; his confession
statement is consistent with and corroborated by the
physical, forensic and other case evidence; and his
confession statement lead to new and missing case
evidence. Unlike Mr. Sander, Gordon knew the origin
(not an accelerant) and the location of the fire (in the
vault). Mr. Gordon’s had in his car clothing matching
that worn by person captured on camera putting the
note on the law enforcement center. In his confession, Mr. Gordon stated that he used a lighter to
start the fire, and there was a lighter found in his

App.139a
car. Mr. Gordon correctly told the detectives where
the fire alarm was pulled and described the pull station that was pulled (i.e., the pull station by the
men’s locker room), which the ATF investigation
determined to be the pull station that was actually
pulled. Mr. Gordon indicated that the fire was
started by lighting a sweatshirt, and indeed
sweatshirts were stored in the vault (not only is this
physically corroborative of Mr. Gordon’s initial statement, but it also is a non-public detail that is not
likely guessed by chance that would only be known
by the true perpetrator and police investigators). And
Mr. Gordon knew the combination to the vault, as
indicated in his written note.
In short, just as Mr. Sander’s coerced confession
statements bears no indicia of reliability or corroboration, Mr. Gordon’s voluntary confession bears numerous indicia of reliability and substantial corroboration.
The fact that Mr. Gordon’s written and oral confessions
bear substantial indicia of reliability provides even
further evidence of the substantial unreliability of
Mr. Sander’s coerced confession.
In their depositions, detectives Oestreich, Klauzer
and/or Moser all agreed that the purpose of a criminal
investigation is to find the truth; that information
obtained in a criminal investigation must be independently verified; that confessions must be corroborated;
that giving intimate details that only the true perpetrator would know is an indicia of a confession’s
reliability; and that for confession evidence to be
treated as trustworthy, it needs to be corroborated by
actual facts. Yet detectives Oestreich and Klauzer
failed ask follow up with any meaningful questions of
James Gordon once he confessed, and they failed to seek

App.140a
out or even acknowledge any evidence that clearly
corroborated James Gordon’s confession and invalidated Thomas Sander’s, even though such corroboration was glaring and all but staring them in the face.
Instead, they chose to altogether ignore the strong
evidence of Thomas Sander’s innocence and altogether ignore the strong evidence James Gordon’s guilt
in starting the Trinity High fire, and almost immediately had James Gordon charged with the crime of
hindering law enforcement (for making what appears
to be a manifestly accurate and substantially corroborated true confession) while writing internal congratulatory memos to themselves about what a great
job they had done in the investigation, which almost
could not have been further from the truth.
XII. Detective Oestreich’s and Detective Klauzer’s
Repeated and Intentional Violations of Generally
Accepted National Police Interrogation Training
Standards and Practices
In their interrogations of Thomas Sander on
March 3-5, detectives Oestreich, Klauzer and Moeser
repeatedly and intentionally violated numerous nationally recognized interrogation training standards,
protocols and generally accepted police interrogation
practices. In so doing, detectives Oestreich, Klauzer
and Moeser demonstrated both that they are in many
ways very poorly trained about proper and improper
interrogation methods, and that they engage in interrogation practices that create a high risk of eliciting
false, unreliable and/or involuntary statements, admissions and confessions
First, police interrogators are trained to properly
give the easy-to-administer fourfold Miranda warnings

App.141a
and elicit knowing and voluntary (implicit or explicit)
waivers. Instead, the detectives either intentionally
failed to administer Miranda warnings (or elicit a
Miranda waiver) from Mr. Sander when they were
legally required to (i.e., when he was clearly in
custody and they were asking questions that sought
to elicit incriminating statements) OR they gave a socalled “soft” Miranda, which has no meaning in practice but instead is a euphemism for giving an
incomplete and unlawful warning without any accompanying waiver. In other words, what they describe
as a “soft” Miranda warning was no warning at all
but, rather, a hard and blatant Miranda violation.
The detectives intentionally failed to Mirandize Tom
Sander when they knew they were legally required to
do so. Making matters worse, when Mr. Sander specifically requested counsel, the detectives in effect
intentionally denied his request by talking him out of
it – again contravening universally accepted American police interrogation standards and practices.
Second, American police interrogators are trained
to thoroughly “investigate before you interrogate,” as
the famous training firm Reid and Associates puts it
in their manual, as Detective Oestreich acknowledged in his June, 2016 deposition.63 The detectives
failed to meaningfully or properly investigate Thomas
Sander before subjecting him to a guilt-presumptive,
accusatory, lengthy and ultimately coercive interrogation. The detectives did not talk to Derrick Hill,
the ATF agent investigating the fire, or to the fire
marshal before making Thomas Sander their guiltpresumed suspect nor did they evaluate any physical
evidence other than a sticky note from Tom Sander’s
63 Interrogation of Terry Oestreich (June, 2016) at P. 129

App.142a
computer. Nor did they even seek to determine whether
Tom Sander was in the building at the time the fire
was set (the evidence indicates he was not). Instead,
they concluded, based on SPO Hanson’s third-hand
gut hunch about the meaning of Mr. Sander’s alleged
body language, that he must have started the fire
and proceed to conduct a theory-driven interrogation
designed to incriminate and build a case against Mr.
Sander rather than seek to find the truth.
Third, American police interrogators are trained
to never prevent a suspect from going to the
bathroom and to provide suspects not only with
regular restroom breaks, but also with adequate
food, water and rest. Remarkably, detective Oestreich testified in his June 2016 deposition that it is
permissible for police interrogators to withhold biological functioning and not let someone go to the
bathroom during an interrogation.64 No it is not. In
fact, this reflects an intent to unlawfully detain Mr.
Sander. The detectives not only intentionally and
repeatedly denied Mr. Sander’s request to go to the
bathroom until he provided the confession they were
seeking, but they also failed to provide him with food
or water.
Fourth, American police interrogators are trained
never to use explicit threats and promises because
they are not only apt to make an innocent person to
confess, but they violate American constitutional law
and are therefore likely to lead to the suppression of
any confession evidence, as of course occurred here.
The detectives repeatedly and blatantly threatened
Mr. Sander with harm if he did not confess and
64 Deposition of Terry Oestreich (June, 2016) and P. 123.

App.143a
repeatedly and blatantly promised him leniency and
freedom if he did. Such threats and promises are
regarded both as psychologically and legally coercive.
Remarkably, once again, detective Terry Oestreich
testified in his June, 2016 deposition that any technique short of physical coercion, and including psychological coercion, is okay.65 Again, detective Oestreich
is wrong, and dangerously so. As he has acknowledged, detective Oestreich knowingly used psychologically coercive interrogation techniques on Mr.
Sander.
Fifth, investigators are trained not to engage in
excessively long interrogations. Reid and Associates,
the leading interrogation trainers in the United
States, tell police that they should not interrogate
longer than four hours absent extraordinary circumstances. Mr. Sander was interrogated for approximately 4 and ½ hours on March 4, 2014, creating an
unnecessary risk of eliciting and involuntary and/or
unreliable confession.
Sixth, American investigators are trained to verify
and corroborate confession evidence since the purpose
of a criminal investigation is to get the truth, not
merely to create testimonial evidence against suspected
participants. In their deposition testimony, the detectives, of course, acknowledged this. But in practice in
their investigation and interrogations of Thomas
Sander, the detectives almost could not have failed at
this more emphatically. As discussed in the previous
section, the detectives were completely blind to the
fact that Mr. Sander’s confession statement contained
65 Deposition of Terry Oestreich (June, 2016) at Pp. 104 and
Pp. 119-120.

App.144a
no indicia of reliability and substantial indicia of
unreliability, while Mr. Gordon’s confession statement
contained substantial indicia of reliability. Instead of
doing what any properly trained investigators would
have done – eliminate Mr. Sander as a suspect and
pursue Mr. Gordon as a suspect – the investigators
instead sought to get Mr. Gordon “out of the way” by
charging him with the crime of hindering law enforcement and failing to conduct any follow up questioning
of his claims or seek to confirm or disconfirm any of
them. Instead, they wrote themselves congratulatory
memos about what a great job they had done when in
fact they could not have doubly failed more miserably
at the most basic function of criminal investigation –
separating the innocent from the guilty.
In sum, the detectives were poorly trained, if at all,
on the problem of eliciting involuntary and/or unreliable confessions, and they intentionally engaged in
interrogation techniques, practices and methods that
were improper, unlawful and/or created a high risk of
eliciting false confession evidence. In so doing the
detectives manifested a willful disregard for pursuing
truthful, accurate and corroborated testimonial evidence in their investigation of the Trinity High fire,
and were reckless with respect to the consequences of
their actions.
XIII. Conclusion
In conclusion, based on my detailed analysis above,
it is my professional opinion that:
1) It has been well-documented in the empirical
social science research literature that hundreds of
innocent suspects have confessed during police interrogation to crimes (often very serious crimes such as

App.145a
murder and rape) that it was later objectively proven
they did not commit;
2) It has been well-documented in the empirical
social science research literature that the primary,
sequential causes of false confession are: 1) incompetent,
reckless, overzealous and/or dishonest police investigation leading to a premature and erroneous misclassification of an innocent person as a guilty suspect;
2) subjecting that factually innocent but misclassified
person to a guilt-presumptive, accusatory and psychologically deceptive, manipulative and/or coercive interrogation; and 3) feeding (i.e., “contaminating”) that
suspect (with) non-public case facts that he or she is
pressured and/or persuaded to incorporate into a
fabricated false confession;
3) The confession statements of Thomas Sander
are almost certainly, if not certainly, false: they contain
numerous factual and logical errors, inconsistencies,
omissions and other indicia of unreliability that are
the hallmarks of false and unreliable confessions;
4) The confession statements of James Gordon
bear the indicia of reliability that are the hallmarks
of a true confession: James Gordon’s confession statement provided police with non-public facts, that were
not likely guessed by chance and not known to the
police, and led to new and missing evidence that also
corroborated the accuracy of his confession statements;
5) The multiple custodial interrogations of Thomas Sander were guilt-presumptive, accusatory and
theory-driven. These interrogations were not structured
to find the truth but, instead, to intentionally incriminate Thomas Sander by coercively and unlawfully

App.146a
breaking down his denials of guilt and eliciting a
statement of guilt from him that was consistent with
the investigators’ pre-existing assumptions, beliefs and
speculations;
6) Before interrogating him, the investigators misclassified Thomas Sander as guilty when, in fact, they
had no evidence whatsoever indicating that Thomas
Sander either knew about, or set, the fire at Trinity
High School on March 3, 2014;
7) The multiple custodial interrogations of Thomas Sander were intentionally psychologically coercive:
the investigators intentionally violated Mr. Sander’s
due constitutional Miranda and due process rights
and intentionally used numerous interrogation techniques that are known to cause a suspect to perceive
that he or she has no choice but to comply with their
demands and/or requests and that are known to
increase the risk of eliciting involuntary statements,
admissions and/or confessions;
8) The multiple custodial interrogations of Thomas Sander contained numerous interrogation techniques, methods and strategies that have been shown
by social science research to increase the risks of
eliciting false and unreliable statements, admissions
and/or confessions (i.e., situational risk factors) when
misapplied to the innocent. These included sleep
deprivation, lengthy interrogation, false evidence ploys,
minimization, maximization, and implied and explicit promises and threats;
9) The multiple custodial interrogations of
Thomas Sander involved numerous and documented
instances of police interrogation contamination (i.e.,
leaking and disclosing non-public case facts) that

App.147a
contravene universally accepted police interrogation
training standards and best practices, and which
increased the risk that Thomas Sander’s coerced confession statement would, misleadingly, appear to be
detailed and self-corroborating; and
10) Detective Oestreich’s and Detective Klauzer’s
repeatedly and intentionally violated national police
interrogation training, standards and practices in
their interrogations of Thomas Sander, thereby substantially increasing the risk that they would elicit
both involuntary and unreliable statements, admissions and/confessions from him.
The opinions I express in this report are based on
my own knowledge, research, experience and publications; research and publications in the field; and the
case-specific information and evidence that has been
provided to me. I understand that additional case
information, discovery and/or testimony will be forthcoming, and, accordingly, I reserve the right to modify
and extend any opinions expressed in this report, or
in a supplemental report, at that time.
If you have any questions, please do not hesitate
to contact me.
Sincerely yours,
/s/ Richard A. Leo, Ph.D., J.D.
Hamill Family Professor of Law
and Social Psychology
University of San Francisco

